<html>
<title> - GREENER COMMUNITIES, GREATER OPPORTUNITIES: NEW IDEAS FOR SUSTAINABLE DEVELOPMENT AND ECONOMIC GROWTH</title>
<body><pre>[Senate Hearing 111-235]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-235
 
 GREENER COMMUNITIES, GREATER OPPORTUNITIES: NEW IDEAS FOR SUSTAINABLE 
                    DEVELOPMENT AND ECONOMIC GROWTH 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING THE WAYS IN WHICH HOUSING AND TRANSPORTATION POLICY CAN WORK 
  IN COMMON TO MEET FUTURE HOUSING, TRANSPORTATION, AND ENVIRONMENTAL 
                        NEEDS IN OUR COMMUNITIES

                               __________

                             JUNE 16, 2009

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-418 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 





















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          MEL MARTINEZ, Florida
DANIEL K. AKAKA, Hawaii              BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  JIM DeMINT, South Carolina
JON TESTER, Montana                  DAVID VITTER, Louisiana
HERB KOHL, Wisconsin                 MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             KAY BAILEY HUTCHISON, Texas
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                    Edward Silverman, Staff Director

              William D. Duhnke, Republican Staff Director

               Mitchell S. Warren, Senior Policy Advisor

                   Lisa Frumin, Legislative Assistant

                       Bonnie Graves, FTA Fellow

                       Dawn Ratliff, Chief Clerk

                      Devin Hartley, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)













                            C O N T E N T S

                              ----------                              

                         TUESDAY, JUNE 16, 2009

                                                                   Page

Opening statement of Chairman Dodd...............................     1
    Prepared statement...........................................    27

Opening statements, comments, or prepared statements of:
    Senator Tester...............................................     4
    Senator Warner...............................................     5
    Senator Merkley..............................................     6
    Senator Brown
        Prepared statement.......................................    28
    Senator Bennet
        Prepared statement.......................................    29

                               WITNESSES

Shaun Donovan, Secretary, Department of Housing and Urban 
  Development....................................................     6
    Prepared statement...........................................    30
    Responses to written questions of:
        Chairman Dodd............................................    45
        Senator Shelby...........................................    45
        Senator Schumer..........................................    46
        Senator Menendez.........................................    46
        Senator Bennet...........................................    46
        Senator Crapo............................................    48
        Senator Corker...........................................    48
Ray LaHood, Secretary, Department of the Transportation..........     9
    Prepared statement...........................................    34
    Responses to written questions of:
        Chairman Dodd............................................    50
        Senator Schumer..........................................    52
        Senator Menendez.........................................    54
        Senator Bennet...........................................    56
        Senator Crapo............................................    59
        Senator Corker...........................................    60
Lisa P. Jackson, Administrator, Environmental Protection Agency..    11
    Prepared statement...........................................    40
    Responses to written questions of:
        Chairman Dodd............................................    62
        Senator Schumer..........................................    65
        Senator Menendez.........................................    66
        Senator Bennet...........................................    66
        Senator Corker...........................................    69

                                 (iii)


 GREENER COMMUNITIES, GREATER OPPORTUNITIES: NEW IDEAS FOR SUSTAINABLE 
                    DEVELOPMENT AND ECONOMIC GROWTH

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 9:32 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Christopher J. Dodd (Chairman 
of the Committee) presiding.

       OPENING STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD

    Chairman Dodd. The hearing will come to order. Let me thank 
all of you for being here this morning in what I believe to be 
a historic hearing--those words probably get used more 
frequently than they should, but I believe this is historic in 
that the three witnesses who are with us this morning I don't 
believe have ever appeared jointly before this Committee, or 
for that matter, any other committee that I know of, at least 
going back, and I have looked at the records, where we have had 
the Secretary of Housing, the Secretary of Transportation, and 
the Administrator for the Environmental Protection Agency 
together at one hearing on a common theme. So we thank all 
three of our Secretaries for being with us and we thank the 
audience that has come out this morning and I thank my 
colleagues for joining us here. Senator Shelby may be able to 
get by--we are not sure yet--this morning, and other Members 
who are interested in the subject matter.
    Today's title of the hearing is ``Greener Communities, 
Greater Opportunities: New Ideas for Sustainable Development 
and Economic Growth.'' This is an important subject matter and 
all three of our witnesses have wonderful backgrounds and 
knowledge and expertise in this area, so I want to begin by 
thanking all three of you for being here this morning and 
participating in this hearing and this discussion of how we 
move forward.
    So let me thank you for joining us. I hope all had a 
painless commute, by the way, this morning. But if you didn't, 
I can understand entirely. I am from Connecticut, and 
Connecticut has a long history of understanding what it is to 
have a painful commute. Although we love our State, we know 
something about rough commutes. Take I-95, the main corridor 
that runs through Southern Connecticut. Over the last 50 years, 
average daily traffic in the Connecticut Southwest corridor has 
increased more than seven-fold, to give you some idea of the 
problem.
    Imagine you are on your way home from a hard day at the 
office, and when you get there, your children are hopefully 
waiting for dinner. But at the rate traffic is moving, you are 
just hoping you might get there in time for breakfast in the 
morning. For 25 minutes, 45 minutes, over an hour, you grit 
your teeth and grip the wheel harder as traffic crawls slowly 
along the highway. The air is clouded with exhaust from what 
seems like millions of cars barely moving at almost $3 a 
gallon, and things won't get any easier when you and your 
fellow motorists slowly grind along the same road to work the 
following morning.
    So welcome to the daily commute for far too many residents 
in my State and many, many others across this country. It is 
not unique to Connecticut. It is becoming not unique at all. It 
is becoming more of the standard. So if you know me at all, you 
know how I feel about the importance of new transit options.
    I have been a longtime advocate for the Tri-City Corridor 
that will connect new transit villages, get people off the 
roads, and revitalize our regional economies. It will 
accomplish this by initiating new commuter rail service and the 
110-mile-an-hour intercity train service between New Haven, 
Connecticut and Springfield, Massachusetts, with direct 
connections to New York City and eventually Boston, as well. 
This project is one of my top priorities as it is for the 
Connecticut delegation here as well as the people in our State, 
and to use this as an example, again, of densely populated 
areas and alternative modes of transportation.
    But our communities are growing and changing and too often, 
our approach to community development policy has been like one 
of those cars on the Merritt Parkway in Connecticut, trapped in 
gridlock, never moving. It is time to rethink the way we plan 
the futures of the places in which we live, work, and raise our 
families.
    Between 1980 and 2000, the growth of the largest 99 metro 
areas in the United States consumed 16 million acres of rural 
land. That is about an acre for every new household. With new 
population expected to grow by over 150 million people between 
2000 and 2050, this land-use trend simply cannot continue for 
all the obvious reasons.
    Before today, Federal policy has often treated 
transportation, housing, and environmental protection as 
separate issues, distinct from each other. But that system of 
stovepiping simply isn't working and the consequences of 
failing to address the way we plan our communities' growth are 
many. We will continue to lose our rural land and open spaces. 
We will see a worsening of the traffic congestion that has 
tripled over the last 25 years. We will continue to pay more 
and more at the pump at a time when our family budgets are 
already stretched to the max. We will continue to push low-
income families further away from job opportunities. We will 
continue to increase greenhouse gas emissions despite the 
urgent threat of climate change.
    In February, I wrote a letter to President Obama urging him 
to establish a White House Office of Sustainable Development to 
coordinate housing, transportation, energy, and environmental 
policies. The President has been a strong leader on these 
issues and he has already shown a willingness to shake up a 
Federal Government that hasn't always succeeded when it comes 
to addressing related issues in a comprehensive, effective, 
holistic way.
    Today, following up on that letter, we have invited three 
members of the cabinet who don't usually spend as much time in 
the same hearing room as they should, in my view. They will be 
outlining for us the administration's commitment to sustainable 
development, a commitment that recognizes the importance of 
working across traditional boundaries to create more cohesive 
and collaborative policies.
    One important piece of the work that we have to do is to 
provide more transportation choices for families in our Nation. 
Few States suffer from worse traffic congestion than my home 
State of Connecticut does, and the lack of good transit options 
costs families more than just inconvenience. In large part due 
to congested roadways and the lack of affordable housing and 
transit options, Connecticut ranks 49th in the country in 
keeping our young people in the State. Meanwhile, living in a 
transit-rich neighborhood saves money, on average, as much as 
10 percent of a family's budget. This is particularly important 
for those living on fixed incomes or struggling to get by in a 
tough economy, as people are today.
    Improving transportation isn't just about making a daily 
commute easier. It is about empowering people to access jobs 
and critical services and making things just a little bit 
easier for those on a very tight budget. It is a problem that 
hurts not only the quality of life for our citizens, but also 
opportunities for businesses. So we must improve and expand bus 
and rail service, providing new choices for families who would 
no longer have to drive to work and creating space on the road 
for those who do. And we need to build more and better housing 
options near these transit stations.
    For instance, my State has developed a program called Home 
Connecticut. It makes grants available to towns to plan 
incentive housing zones for higher density mixed-income housing 
in downtown areas and redeveloped brownfields close to transit 
options and job centers. It is a strategic investment in our 
economy, our environment, and the quality of our life in 
Connecticut. We have already begun to make progress in my State 
and we can do more, I believe, across the country with similar 
models.
    This Committee is currently drafting legislation to provide 
incentives for regions to plan future growth in a coordinated 
way that reduces congestion, generates good-paying jobs, meets 
our environmental and energy goals, protects rural areas and 
green space, revitalizes our main streets and urban centers, 
creates and preserves affordable housing, and makes our 
communities better places to live, to work, and to raise our 
families. Our bill will also create a competitive grant program 
to provide resources to some of the projects identified in this 
planning.
    There is a lot we can do in this Committee in this area and 
I look forward to continue to work alongside my colleague, 
Senator Shelby, the former Chairman of the Committee, and our 
colleagues on this Committee, many of whom care as deeply about 
this issue as I do, both Democrats and Republicans who are 
facing these issues, not just in urban areas on the East and 
West Coast, but even in our Midwestern States, where congestion 
is accumulating around urban areas.
    It is often a great trivia question to ask people, what is 
the most urbanized State in America? And you will get all sorts 
of answers. Rarely is the answer given, Nevada, but that is the 
most urbanized State in America, with roughly 90 to 95 percent 
of its population residing in one county, of course, Clark 
County around Las Vegas.
    So these issues are not just East Coast-West Coast any 
longer. Every State in the country, to one degree or another, 
is facing these challenges. So what we are advocating here is 
not something just for those States that are facing the most 
serious problems today, but also planning for what we can down 
the road.
    Just like I have urged the administration to, I believe we 
in the Senate must work in a coordinated and comprehensive 
fashion, as well, if we are going to succeed in this effort, 
and particularly this Committee will need to work closely with 
Senator Barbara Boxer of California's EPW Committee and Senator 
Jay Rockefeller of West Virginia's Commerce Committee as we 
write the next surface transportation bill, legislation that I 
hope will eliminate the stovepipes that I mentioned at the 
outset of this hearing within transportation policy and ensure 
that it helps to advance broad, good, related to not just 
transportation but community development and economic growth, 
energy, and environmental issues.
    Today, we will hear from witnesses who have already begun 
the important collaborative effort within the administration, 
public servants who are doing a tremendous job, in my view, and 
I commend all three of you for the first 6 months of efforts. 
Some of us have had the pleasure already with Shaun Donovan, 
who has been in my State of Connecticut, my major cities, 
talking about housing and transportation issues. Ray LaHood has 
been, I know, around the country, as well, discussing these 
issues, as well, with Shaun. And Lisa, we welcome you, as well, 
and your tremendous efforts in the environmental policies, as 
well.
    This administration is today making a significant welcome 
commitment to sustainable development and livable communities 
and we are eager this morning to discuss how we on this 
Committee can be better partners in helping our communities 
plan for a much more prosperous and enjoyable future.
    With that, let me turn to my three colleagues who are here 
with us this morning, if they would like to make any brief 
opening comment before turning to our witnesses. Jon.

                STATEMENT OF SENATOR JON TESTER

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
you for calling this hearing and I want to thank the three 
witnesses today for the great job that you have done in the 
short time you have been in your positions. I very much 
appreciate your proactive nature, each and every one of you. I 
have had the chance to work with Shaun and Lisa directly. I 
will be working with Ray LaHood here in a couple of weeks 
directly. But the truth is that you folks have done some great 
work in a short period of time and we look forward to more 
great work as time goes on.
    Secretary Donovan was in Montana the end of May at one of 
the sessions we had. He talked about policy solutions and not 
thinking in silos, stovepipes, bringing people together and 
actually getting a good dialog going and getting more bang for 
the buck and getting better service to the people. I think that 
is what we are here for today, ``Greener Communities, Greater 
Opportunities, and New Ideas for Sustainable Development'' as 
they apply to housing and transportation and water and 
environment. All those things, there is a synergy that can be 
related between them, and I think that this hearing is a good 
hearing to try to promote that, quite honestly. I don't think 
that you can have sustainable communities without a good 
housing program nor without a good transportation program, and 
absolutely without water, just to name three things that come 
to mind.
    So as this hearing moves forward, I am going to appreciate 
your perspective on how we can get things done to make things 
better in this country from a community standpoint and kind of 
how we plot out the road map for the future, really.
    So thank you, Mr. Chairman. I appreciate the opportunity.
    Chairman Dodd. Thank you, Senator Tester.
    Senator Warner is--Mark and I have known each other for a 
long time, but as Governor of Virginia, I know this was one of 
your top priorities, dealing with this. Of course, all of us 
here who serve in Congress are familiar with Northern Virginia 
and the congestion----
    Senator Warner. Right. We have no congestion in the Greater 
Capital Area.
    [Laughter.]

              STATEMENT OF SENATOR MARK R. WARNER

    Senator Warner. I apologize to you folks in Connecticut who 
have still got it. We have, of course, solved all that problem 
completely here in the Greater Capital Area.
    Thank you, Mr. Chairman, for holding this hearing, and I 
thank these wonderful witnesses.
    I will reserve most of my comments until the questions, but 
I just want to echo what Senator Tester has said, to get out of 
the stovepipes. I know land-use planning and transportation 
planning are normally thought of as a State and local issue, 
but having some notion of what can we do from the Federal 
standpoint to kind of marry those two areas better together was 
something I am anxious to hear about. I am particularly anxious 
to hear from all of you about a concept that I know the 
Chairman has worked on, the green bank idea and how we can use 
that replenishing asset to make investments. Secretary LaHood 
and I have already had a number of conversations about the 
opportunity to think at DOT outside of the silos.
    I didn't fully appreciate, and this may be a little 
inappropriate to say, but as a Governor, I always would get 
very frustrated with the Federal Government, why we don't have 
a comprehensive, logical transportation policy in this country. 
Now that I am a member of the Senate, I understand that better, 
why we don't, because of just the historic jurisdictional 
divisions in terms of how we think about transportation policy. 
I don't think we are probably going to change those 
jurisdictional divisions, but, oh boy, Ray, anything we can do 
from a Federal DOT standpoint to think more holistically, more 
multi-modally, and which obviously ties into greener 
communities in terms of how we think about mobility and 
connectivity as opposed to just VMTs is something that is 
really important.
    So Mr. Chairman, I appreciate you having this hearing.
    Chairman Dodd. Certainly. Thank you very much.
    Senator Merkley is a former Speaker of the House and 
understands these issues. I mentioned Western States, and this 
is not just the highly urbanized States that face these issues.

               STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. Thank you very much, Mr. Chair. I can tell 
you all that from Oregon's perspective, you all constitute the 
livability dream team. We are just delighted to have you 
working hard on affordable housing, on transportation that 
works in an urban environment, and certainly expanding the 
impact of housing and transportation in a positive way on the 
environment. So I am delighted to have you all here.
    Oregon is a State that has been wrestling with this for a 
long time. Apologies to my colleagues from California, who are 
not here, but California was an inspiration to Oregon in that 
we wanted to avoid the sort of sprawl we were seeing to the 
South when California was growing very rapidly. So we 
experimented with statewide planning and it has gone through a 
number of initiatives and citizens have affirmed their 
determination to continue on that path with urban growth 
boundaries to create livability, to improve transportation, to 
make it more cost effective, to save energy, a whole host of 
things. So I look forward to your testimony and thank you for 
the work you are doing.
    Chairman Dodd. Thank you very much, Senator.
    Welcome, all three of you. We are delighted to have you 
with us. Secretary Donovan, we will start with you and then we 
will go to Ray LaHood. Obviously, any supporting data and 
information you have, along with opening statements and 
materials from our colleagues, will be included in the record, 
as well.

 STATEMENT OF SHAUN DONOVAN, SECRETARY, DEPARTMENT OF HOUSING 
                     AND URBAN DEVELOPMENT

    Secretary Donovan. Good morning, Chairman Dodd and Members 
of the Committee. It is a great pleasure to be here today to 
speak about the critical link between housing, transportation, 
and environmental policy. I want to thank you and your 
Committee for your leadership in developing and pushing for 
innovative and integrated approaches to these issues.
    Today, we announce a landmark agreement between the three 
agencies before your Committee that includes six livability 
principles that will guide our work together, representing a 
powerful statement of common goals, strategies, and purpose for 
communities across the country whose vitality in the 21st 
century depends on our ability to work together in partnership.
    Earlier this year, I was pleased to testify before the 
House with my colleague Secretary Ray LaHood from the 
Department of Transportation. Since that March testimony, we 
have taken important steps to improve coordination between our 
Departments. I am especially pleased to have EPA Administrator 
Lisa Jackson join us today as a partner in this effort, 
providing further evidence of our commitment to collaboration 
and coordination across the entire Federal Government.
    More than ever, I am convinced, as you said, Chairman Dodd, 
that solutions to the myriad challenges facing our housing 
markets must be addressed in a comprehensive way to reduce our 
dangerous dependence on foreign oil and drive down energy costs 
for consumers and businesses alike. This means that HUD, in 
collaboration with our partner agencies, must find new 
integrated solutions to the multi-dimensional challenges faced 
by cities, suburbs, and rural areas.
    As you know, our budget proposal includes a $150 million 
Sustainable Communities Initiative to be managed by a new 
Office of Sustainable Housing and Communities. As the Chairman 
said, we need to synchronize climate change, energy, community 
development, housing, and transportation policy in the most 
comprehensive, holistic way possible. I believe creating an 
Office of Sustainable Housing and Communities inside HUD to 
serve as a single point of contact with other Federal agencies 
is the best way we can achieve that goal. Already, these kind 
of offices at our partner agencies have helped break down 
barriers to change. They are proving to be a successful model 
for interagency coordination and collaboration.
    Under our Sustainable Communities Initiative, HUD and DOT 
would jointly administer a $100 million fund to encourage 
metropolitan regions, via competition, to develop integrated 
housing, land-use, and transportation plans, and to use those 
integrated plans to drive the planning and decision making of 
localities. The goal of this initiative is to articulate a 
vision for growth tailored to specific metropolitan markets 
that Federal housing, transportation, and other Federal 
investments can support.
    Funding would generally be used to support the development 
of integrated, state-of-the-art regional development plans that 
use the latest data and most sophisticated analytic modeling 
and mapping tools available. These efforts will benefit urban, 
suburban, and rural communities alike, but require a level of 
integrated planning that spans jurisdictional boundaries in new 
and unprecedented ways. We simply can't afford to be 
territorial about these issues any longer.
    The Sustainable Communities Initiative in our fiscal year 
2010 budget also includes $40 million in grants that will be 
used to support metropolitan and local leaders in making 
market-shifting changes in local zoning and land-use rules and 
another $10 million for research.
    With the costs of transportation now approaching those of 
housing for many working families, we will work to jointly 
develop a Housing and Transportation Affordability Index with 
DOT. When you buy a car, you know very clearly what its energy 
efficiency is because there is a sticker on the window. We need 
the same thing for our houses and our buildings. An 
Affordability Index will give consumers and businesses alike 
the information they need to make informed choices that meet 
their needs, creating a more dynamic, efficient marketplace. 
That is why we intend to share all this data, research, and 
evaluation with the private sector, to catalyze innovation and 
maximize market efficiency.
    We will also conduct an intensive review of our respective 
programs to determine how to support the marriage of housing 
and transportation and to emphasize location efficiency. 
Included in this work will be a historic effort to develop data 
and bolster research to better track housing and transportation 
expenditures by location.
    Since March when we announced our agreement with DOT, we 
have made significant progress. Teams from our agencies are 
meeting on a weekly basis. Further, we are pleased to announce 
that EPA is now a full partner. They will work with HUD and DOT 
to address water infrastructure issues, expand technical 
assistance to State and local governments, return brownfield 
sites to productive use, and address hazardous waste and other 
barriers to reinvestment in older communities.
    As a result of our agency's work, I am pleased to join with 
my DOT and EPA colleagues to announce a Statement of Livability 
Principles. These principles provide a set of guidelines for 
each agency to formulate and implement policies and programs. 
More importantly, they mean that we will all be working off the 
same playbook. For the first time, the Federal Government will 
speak with one voice on housing, environmental, and 
transportation policy.
    The first principle, providing more transportation choices, 
addresses our need to expand the options available to American 
families, whether commuting to work, dropping children off at 
school, or running errands.
    The second principle, promoting equitable, affordable 
housing, is at the heart of HUD's mission. In order for our 
neighborhoods to thrive, our regions to grow, and our Nation to 
prosper, we must support communities that provide opportunities 
for people of all ages, incomes, races, and ethnicities to 
live, work, learn, and play together.
    The third principle, increasing economic competitiveness, 
pinpoints the need to coordinate housing, transportation, and 
environmental policy to make us more competitive and 
productive. Our Nation's ability to compete in the global 
economy is dependent on how quickly and efficiently we can 
connect our labor force to education and employment 
opportunities.
    The fourth principle, supporting existing communities, 
identifies the need to support community revitalization, build 
upon existing public investments, and preserve our Nation's 
rural land.
    The fifth principle, leveraging Federal investment, focuses 
on increasing the effectiveness of American government at all 
levels. We want to boost the capacity of local communities to 
more effectively plan for future growth and support the ability 
of local communities to think and act regionally.
    Finally, the last principle, valuing communities and 
neighborhoods, brings the entire effort together. We must 
ensure that Federal investment supports safe, healthy, and 
walkable communities, whether in cities, suburbs, or rural 
areas.
    So we have our playbook, Mr. Chairman, strong evidence that 
our efforts to find productive solutions together will rise to 
the challenges before us. But the real test of our commitment 
will be in putting the principles into action. I propose to do 
that in several ways.
    First, over the next few months, I intend to implement a 
process at HUD led by Deputy Secretary Sims to engage every 
program and every office at headquarters and in the field to 
identify the barriers that they encounter in implementing these 
principles. I will also be asking for their ideas, suggestions, 
and recommendations. This must be an inclusive process and an 
inclusive process depends on listening.
    Second, I will ask our program offices to incorporate these 
principles in HUD's next annual performance and management 
plans, and we will charge the 82 field offices around the 
country with bringing these principles to life in the 
neighborhoods of America.
    Last, we will share with you the performance measures that 
we are developing for each of these principles so that they can 
be measured in tangible outcomes on the ground. As I told you 
during my confirmation, Mr. Chairman, I am a numbers guy. I 
believe in evidence-based government and accountability. Strong 
performance measures will form the criteria for measuring the 
success of this initiative.
    So I am optimistic that with these ideas, these new 
partnerships, and the leadership of my colleagues here today, 
and with you, as well, Mr. Chairman, we are poised to build the 
stronger, more resilient, and sustainable communities Americans 
want and need in the 21st century.
    Thank you, and to Members of the Committee, I look forward 
to answering your questions after my colleagues' testimony.
    Chairman Dodd. Thank you very, very much. I am very excited 
about your livability principles. It is well done, I say to all 
of you.
    We have been joined by Michael Bennet, as well, our 
colleague from Colorado. Senator, thank you for being here this 
morning, as well.
    Secretary LaHood.

       STATEMENT OF RAY LaHOOD, SECRETARY, DEPARTMENT OF 
                         TRANSPORTATION

    Secretary LaHood. Chairman Dodd and Members of the 
Committee, I think the story today is that your leadership has 
brought us together and we are grateful to you. I think the 
other story is that cabinet secretaries can be team players, 
and we take our initiative for that from President Obama, who 
when he asked us to serve in the cabinet asked us to be team 
players.
    So Mr. Chairman, thank you for the opportunity to discuss 
the Department of Transportation's plans to develop and 
implement a Livable Communities Initiative that will measurably 
enhance the quality of life for families, workers, and 
communities across America. I want to thank you, Chairman Dodd, 
for your leadership in placing this important issue on the 
national agenda and gathering all of us here today to answer 
your questions.
    As I said during my confirmation hearing back in January, 
we must invest in transportation projects that preserve and 
enhance the unique characteristics of each urban, suburban, and 
rural neighborhood. To that end, I am committed to ensuring 
that our transportation policies help unite and strengthen 
communities. Livable communities, by definition, offer 
residents choices among different modes of travel, from highway 
to light rail to bike paths. Public transit connects housing, 
employment, and recreational opportunities wherever possible. 
And plans for growth and development take energy efficiency and 
lower emissions into account at every step. Today, I will 
describe how we plan to begin to achieve these goals.
    As you know, DOT has been collaborating with Secretary 
Donovan at HUD on concrete ways to encourage communities and 
developers to integrate housing and transportation planning and 
related investments, and I am pleased to announce that 
Administrator Lisa Jackson of the Environmental Protection 
Agency has agreed to join our Sustainable Community 
Partnership. I particularly want to thank the Committee for its 
role in encouraging us to join forces and you, Mr. Chairman, 
for encouraging us to work together.
    The three-way partnership will have an enormous effect in 
enabling the Federal Government to coordinate and direct 
Federal investments in water infrastructure, better air 
quality, housing, and transportation. This is a new direction 
for the DOT and our partners and we are grateful to President 
Obama and his senior advisors on the environment, domestic and 
urban policy for supporting this important effort.
    I am very confident that our agreement to align policies 
and programs across our three departments, which have 
traditionally been stovepiped, is a very positive and important 
step forward toward making our livable community concept a 
reality. We simply cannot continue business as usual.
    Fresh water is a scarce commodity in many fast-growing 
communities in the West and Southwest. Air quality remains poor 
in many large urban areas. And many of our highways, airports, 
and freight railways are far too congested to operate as they 
should. We need fresh ideas to address these challenges. We 
need to think holistically because history has shown that a 
piecemeal approach does not work over the long term. If we are 
truly serious about combating climate change, encouraging 
Americans to walk more and drive less, and conserving natural 
resources through more efficient land use, then we must take 
this cross-cutting approach.
    Within the last few weeks, our partnership has identified 
an ambitious set of principles that will define our efforts in 
the coming months as we articulate policies, programs, and 
grants that States and communities can tap into. Our principles 
include: Providing more transportation choices; expanding 
access to affordable housing, particularly housing located 
close to transit; enhancing economic competitiveness in terms 
of giving people access to jobs, education, and services, as 
well as giving businesses access to markets; targeting Federal 
funds toward existing communities to spur revitalization and 
protect rural landscapes; increasing collaboration among 
Federal, State, and local governments in order to better target 
investments, and improve accountability; and valuing the unique 
qualities of all communities, whether urban, suburban, or 
rural.
    Secretary Donovan, Administrator Jackson, and I stand ready 
to work with Congress to ensure that these principles are 
embedded in forthcoming legislation and regulations that govern 
our programs. This certainly includes the next surface 
transportation authorization bill, which we want to make sure 
is compatible with our livability agenda. This is a big task, 
but I am confident we will succeed.
    Thanks to the American Recovery and Reinvestment Act, and 
thank you for those who voted for it, momentum is already 
building. The Recovery Act's $1.5 billion discretionary TIGER 
Grant Program will soon begin funding multi-modal 
transportation projects that promote greater mobility and 
sustainability. We know we are going to receive many, many 
creative proposals that will help transform the transportation 
landscape in urban and rural areas around the country.
    The commitments I have described here today, along with 
other efforts such as new and revitalized inner-city passenger 
rail service, illustrate President Obama's unprecedented 
commitment to making transportation work more effectively and 
efficiently for all Americans. It is a promise I look forward 
to keeping alongside with my colleagues.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Dodd. Thank you very much, Mr. Secretary. We thank 
you for those comments, as well, and can't begin to tell you 
how excited we are that you have taken over the helm of the 
Department of Transportation and your commitment to these 
issues, so we are very grateful to you.
    You know, these are big issues and it is time we took on 
some big issues in the country. The small bore politics that 
went on too long, I think is hopefully over with. And so this 
is the kind of debate we ought to be having and reshaping this 
debate in a way, so I thank you for that.
    We are going to turn to Senator Bennet. Senator Merkley was 
here, but he had to step out. Senator Bennet? Excuse me, I 
apologize. Lisa, I apologize. I am jumping to my colleagues 
instead of getting you, Lisa. I apologize. Lisa Jackson, thank 
you.
    Senator Bennet. I know how late the Chairman was up last 
night.
    [Laughter.]
    Chairman Dodd. We arrived together about one in the 
morning.

  STATEMENT OF LISA P. JACKSON, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Jackson. Oh, my goodness. Well, good morning, Mr. 
Chairman, and thank you for the opportunity to be here. It is 
an unusual venue for me, so I can certainly understand why you 
are not used to seeing EPA here, but we are happy to be here 
this morning. And to Members of the Committee, good morning.
    I am absolutely delighted to be here this morning with two 
of the most extraordinary members of President Obama's green 
cabinet, my colleagues Secretary Ray LaHood and Secretary Shaun 
Donovan, to discuss our agency's work on sustainable 
development. Mr. Chairman, I salute you for your longtime 
interest and work on these issues and I am so happy we are here 
to discuss them today.
    We are happy to announce that EPA has entered into the 
Partnership for Sustainable Communities, and I thank 
Secretaries Donovan and LaHood for their leadership on this 
issue. EPA has been working for years on issues of smart growth 
and this partnership represents a real leap forward for not 
only our agencies, but for the American people.
    The partnership recognizes that the work of our agencies is 
connected in designing or improving our communities to be 
sustainable for the long term. Mobility, housing, and 
environmental issues are entirely interconnected. Where you 
live affects how you get around, and how you get around affects 
where you live. Both decisions affect our environment. We 
cannot reduce greenhouse gas emissions without a development 
strategy that reduces vehicle miles traveled, and we cannot 
provide affordable housing without taking into account what 
residents there must pay for their transportation, for their 
energy, and for their water.
    This partnership will help advance each of our missions. 
Working across agencies gives us an opportunity to share 
knowledge, resources, strategies, and coordinate planning in 
ways that will improve health and the environment, cut costs 
and harmful emissions from transportation, and build more 
affordable homes in communities all over the country.
    Through it, our agencies will work together to help make 
sure our Nation's policies embrace well-designed, energy-
efficient, water-efficient, affordable housing, a 
transportation system with more options for reaching jobs, 
schools, parks, medical care, and other basic needs, and 
waterways that are clean and safe for drinking, swimming, and 
fishing, air that is safe to breathe and land that is free of 
toxic contamination. We have created a framework that will 
guide the cooperative development of policies, regulations, 
spending priorities, and legislative proposals that emphasize 
environmental, economic, cultural, and social sustainability. 
Collective implementation of those policies at the State, 
local, and Tribal levels will ensure that we accommodate our 
Nation's anticipated growth in smarter, more sustainable ways.
    Vibrant and prosperous towns and cities will attract the 
residents and business investment needed for robust growth. 
When growth flows naturally to these places, it makes it easier 
to protect environmental resources, such as forests and 
wetlands, and helps preserve wildlife, farms, rural landscapes, 
and scenic beauty.
    Smart growth principles are equally important in urban, 
suburban, and rural areas. A few weeks ago, I visited Wyoming, 
where EPA's Smart Growth Program--and I have to take a second 
to acknowledge John Frece's leadership--is helping Governor 
Dave Freudenthal address the effects of the State's energy 
development on its environmental resources. In one of the least 
densely populated States in the Nation, residents often found 
themselves in heavy commuter traffic. The jobs weren't in the 
same places where the employees could afford to live. Smart 
growth approaches to these kinds of impacts are just as 
relevant in small town rural America as they are to different 
sets of challenges in New York, New Haven, Birmingham, or 
Houston.
    At EPA, our focus will be on encouraging smart growth 
approaches to protect human health and the environment. This 
includes using smart growth as a tool to combat climate change. 
Combined, buildings and transportation contribute 63 percent of 
our Nation's greenhouse gas emissions. Smarter growth, combined 
with green building techniques, can take a significant chunk 
out of that number.
    Transportation uses 70 percent of the oil consumed in this 
country, and on average, roughly 20 percent of U.S. 
CO<INF>2</INF> emissions come from passenger vehicles. More 
efficient vehicles and cleaner fuel simply will not be enough 
to meet our greenhouse gas reduction and energy independence 
goals. Reducing the number of miles we drive must also be part 
of the solution.
    There is no need to wait for some technological 
breakthrough to reduce the amount of driving we do. The 
strategies to help people drive less exist today and one of 
them is smart growth. We know that investing in public 
transportation, making communities more walkable, and creating 
more housing near job centers result in less driving. It is 
also critical to build on the progress in air quality we have 
seen since the passage of the Clean Air Act in 1990. And smart 
growth can help us get there, too.
    As we move forward, the continued integration of air 
quality, land-use, and transportation planning will be 
important. EPA helps State and local agencies calculate 
emissions benefits for many of the strategies that support 
sustainable communities--better transit, increased carpooling, 
and other travel options. These resources can help communities 
meet Clean Air Act air quality requirements and build better, 
more livable communities.
    And we are seeing real results across the country. Atlantic 
Station is a 138-acre redevelopment project in Atlanta, 
Georgia. Through a public-private partnership involving the 
State of Georgia, the city of Atlanta, the Atlanta Regional 
Commission, Jacoby Development, Incorporated, and the EPA, the 
former Atlantic Steel Mill site was reclaimed and redesigned to 
help residents and workers significantly reduce the amount they 
need to drive.
    One of the largest brownfield redevelopments in the U.S., 
this national model for smart growth includes six million 
square feet of LEED-certified office space, two million square 
feet of retail and entertainment space, 1,000 hotel rooms, and 
it will have between 3,000 and 5,000 residential units upon 
full build-out. A shuttle system that carries one million 
people a year circulates between a commuter rail stop and 
Atlantic Station. Space is reserved for light rail service in 
anticipation of future transit investments. Residents of 
Atlantic Station drive an average of less than 14 miles per 
day, compared to 32 miles a day for the average Atlantan.
    Atlantic Station has also helped improve water quality. 
Because it is compact, Atlantic Station uses much less land 
than a conventional development for the same amount of housing 
and commercial space. This efficient land use reduces annual 
stormwater runoff by almost 20 million cubic feet a year. 
Assuring that all have access to clean drinking water, that we 
improve water quality in our communities, and that we build 
wastewater treatment and stormwater systems is vital to our 
health.
    EPA is also poised to significantly increase its funding 
for wastewater infrastructure through the Clean Water State 
Revolving Fund. This will help communities meet the challenges 
of upgrading aging wastewater and stormwater infrastructure. As 
part of our partnership with DOD and HUD, EPA will encourage 
States to direct additional funds to cost-effective, 
environmentally preferable approaches to infrastructure in the 
planning, design, repair, replacement, and management that also 
promote sustainable communities, and EPA will provide guidance 
and technical assistance to States.
    In addition to improving water quality, our SRF fund can 
support expanded housing choices. In my State of New Jersey, we 
have shown how Federal funding can be used in both rural and 
urban areas to help communities get the type of environmentally 
sound development they want. The State provides lower-interest 
loans for water infrastructure projects that serve mixed-use 
developments and provide residents with transportation choices, 
such as transit villages.
    Importantly, our new partnership with HUD and DOT will help 
us revitalize neighborhoods that have suffered from decades of 
disinvestment. Redevelopment of such sites is difficult. 
Because such sites are usually served by infrastructure and 
transportation, they represent development opportunities that 
are critical to transforming years of disinvestment into a 
future of prosperity.
    Healthy communities are not only environmentally healthy, 
they are socially and economically strong. They offer 
employment and education, safe and affordable homes, and access 
to recreation, health care, and the needs of daily life. These 
kinds of neighborhoods exist all over the country and market 
demand for them is strong. In fact, the strong market has 
driven up costs in smart growth areas, too often putting them 
off limits to lower-income residents.
    EPA is working with our partners to create environmentally 
responsible affordable housing in these neighborhoods. 
Coordinating with State housing officials and the Regional 
Council of Governments, EPA's Smart Growth Program recently 
helped four communities in the Hartford, Connecticut area use 
State affordable housing funds to create mixed-income, mixed-
use, green compact developments with a range of transportation 
options. As partners, we will help communities make sure that 
publicly financed housing is attractive, safe, and convenient.
    In conclusion, thank you so much for the opportunity to 
appear here today. Working together, this is a great 
opportunity to achieve economic and environmental goals that 
our President has outlined for our Nation. Thank you.
    Chairman Dodd. Administrator Jackson, thank you very, very 
much. Those are wonderful examples. I was talking about where 
it is always good to hear about projects actually working and 
doing exactly what we are talking about, so demonstrating this 
is very achievable, that these are not just ideas that have now 
been demonstrated in some communities across the country.
    Let me start, if I can, and I will keep an eye on the clock 
here, and since we don't have an overflow crowd of Members here 
this morning, we will do it sort of more informally. We have 
been joined by Sherrod Brown, Senator Brown of Ohio. Thank you, 
Senator, for being with us. So I will keep an eye on the clock 
here, as well.
    As I mentioned in my opening comments, we are working on 
some legislation on the Banking Committee to try and come up 
with some resources to help to encourage better coordinated 
planning in our communities, and basically that. There may some 
in some communities do a little bit more on the planning, but 
certainly the idea is to get some resource base, because that 
is a challenge. Obviously, States and localities are facing 
tremendous pressures on budgets today and just trying to meet 
current demands on everything from education and health issues 
and so forth and the like.
    So at this juncture, it is hard, and obviously we have got 
our own constraints here, as well. But if we all recognize the 
value of having better planning and coordination, then it may 
be worthwhile for us to step up.
    Senator Warner made the point earlier, when he was a 
Governor looking at the Federal perspective from his chair as 
Governor, whether or not there was any kind of coordinated 
effort that he could count on as a Governor, and I presume 
mayors and others ask the same questions around the country. 
Are we going to do this, and how can we be a partner in this? 
What is our role in all of this, respecting obviously 
localities want to have that determination themselves as to 
what works best for them and don't want us in Washington 
dictating to them in ways that make it impossible for them to 
achieve the results as they see them.
    But I think they agree, as we are seeing in my State of 
Connecticut, more and more communities, for instance, on 
affordable housing are setting aside lands now so that they are 
available to attract people, working families to be able to 
live in these communities. So it is not limited to those who 
can just afford the higher cost of housing and driving people 
away at times when they need that workforce in their own 
communities. So there is, I think, a desire across the country 
for much of what we are talking about today.
    But I wonder if you might share with us just quickly, all 
three of you, what are some of these obstacles we are facing in 
a way? The budget issue is obviously the obvious one to some 
degree. But beyond that, what are the obstacles to coordinated 
planning at the local and regional level and what can we do to 
encourage regional integrated planning?
    I think, Administrator Jackson, you talked about citing 
examples of things that are working. For communities that 
haven't yet tried it, they want to know if there are examples 
out there around the country where this has actually worked and 
people are benefiting from it.
    Secretary Donovan, do you want to start?
    Secretary Donovan. I would love to. I couldn't agree more 
that in addition to the need for resources to support this 
planning, which is along the lines that you are talking about 
in the legislation, very consistent with what we are proposing 
in our Sustainable Communities Initiative for our budget, part 
of the problem here, frankly, is right now, the Federal 
Government is in the way. We are holding up local efforts to 
try to do this integrated planning. So this is exactly as you 
say. This isn't about forcing localities to do something they 
don't want to do. This is very much about getting out of their 
way in addition to providing resources to help them do it.
    One example I would give of that that we have already 
started to work on with Secretary LaHood and his team, right 
now, we require through HUD programs a 5-year consolidated plan 
to be submitted to HUD to get access to many of our block grant 
programs and other funding programs. At the same time, the 
Department of Transportation is requiring metropolitan planning 
organizations and others to do long-range transportation plans. 
And yet, just as you have talked about the stovepipes that 
exist, we don't have any integration between those plans. So if 
a local area wants to do a single comprehensive plan, it is 
much too complicated for them to meet both of our needs for 
those different plans. So we can help them lower costs for 
these planning efforts by bringing together the requirements 
and help to get the kind of coordination that we want. That is 
one example.
    A second thing I would say more specific to HUD is we have 
many--some of them, I would say, well-intentioned but 
problematic requirements in our programs, things like 
environmental requirements that make it hard, as Administrator 
Jackson talked about, for urban areas to redevelop brownfield 
sites, which are the most cost-effective in terms of access to 
transit and other things. But whether it is not having risk-
based state-of-the-art environmental requirements in our 
programs, that is an example.
    Another one would be we support multi-family development, 
rental buildings, across the country, but we have limits on how 
much commercial income can support those mortgages because we 
do residential housing. Well, that gets in the way of the kind 
of mixed-use development that we want to support in urban 
areas.
    So there is a range of barriers like that that are critical 
for us to start to address in our programs and that is exactly 
what we have begun to do through this partnership.
    The last thing I would say is that better information will 
help markets respond to exactly these kind of things. People 
are voting with their feet. If you look at what has happened in 
the foreclosure crisis, the biggest drops in prices have been 
in the least sustainable places, places that don't have access 
to transportation, things that we have talked about here today.
    But right now, the market can't price in those factors. If 
I am a lender and I want to make a mortgage to somebody, if 
they are going to spend in one house 10 percent of their income 
on transportation and in a different house 30 percent of their 
income on transportation, the first house is going to be a 
safer investment for me. But as a lender, I don't have the 
information I need to be able to provide better terms or to 
respond to the safety that is a market-based solution that can 
help to support more sustainable development. By developing an 
Affordability Index, as I talked about in our testimony, we can 
help to drive the market in directions that respond to exactly 
the kind of things that we are talking about.
    Chairman Dodd. I am very excited about the Affordability 
Index.
    I mentioned to some of you, I was in Chicago yesterday and 
met with some people on transportation issues, and one 
individual particularly is doing--I think I mentioned this to 
you, Ray--he is doing mapping, transportation mapping, an 
overlay. An awful lot of people are looking at where to locate, 
where to buy. Obviously, the value of the homes, what they can 
afford.
    Usually the second question is, of course, what are the 
schools like? And you can get surveys. Most States do surveys 
now and will tell you what communities are providing higher 
levels or better quality of education, and that is a major 
driving factor. I have communities in my State that people 
literally will beg, borrow, and steal to afford a home in that 
community exclusively because the quality of the public schools 
is so good. So that is a factor.
    What we don't have is the overlay on transportation, the 
second-largest cost. It is the cost of the home and the cost of 
transportation. And so the ability to then be able to lay over 
that and say, here is what your transportation costs are going 
to be, I think you are going to--first of all, it is an 
incentive at the local level to be able to provide those 
alternative transportation means so that people can calculate 
that and may have a major impact on that decision making 
process, much as the school quality is, as well.
    So I think it is a terrific concept and idea and one that 
we need to develop in the Committee, as well.
    Ray, what are your thoughts on that?
    Secretary LaHood. I think your Committee could do a good 
service by reforming the Metropolitan Planning Organizations. 
The most common complaint I hear from mayors is that the 
Metropolitan Planning Organizations don't really fit their 
opportunity to really coordinate a lot of different activities. 
It is a system that worked in the past, but I would encourage 
you and your staff to work with the Conference of Mayors. They 
have some very good ideas about getting these Metropolitan 
Planning Organizations to encompass much more of the 
metropolitan area--not just the cities, but the suburban areas 
and the rural areas--to incorporate some of the planning that 
needs to be done.
    I think the other thing that we are trying to do, and where 
you can be helpful in your legislation, is to create a Livable 
Communities Program. The Program incorporates a lot of the 
coordination that we are trying to effect, and really develop 
it with our cooperation, so that we send a message to America 
that this is not just some concept, but that it is doable and 
it is doable because all of the different components of the 
Federal Government are willing to work together to do it.
    And I think the third thing from our point of view is on 
New Starts and the availability of funding for transit for 
rural areas and light rail. There is the opportunity for 
different kinds of availability of our New Starts money for 
transit, whether it be for buses or vans to go out to rural 
areas to deliver people to a doctor's appointment and so forth. 
Some of those things exist, but we want to work with you on 
really getting the reforms that allow some of our opportunities 
to become a part of the Livable Communities Program that we 
want to work with you on.
    Chairman Dodd. A great concept.
    Administrator Jackson, you talked about this already, but 
any additional thoughts on the----
    Ms. Jackson. Just briefly, Mr. Chairman. I think your 
question implies part of the answer, this is--and Secretary 
Donovan said it, as well--this has to be from the bottom up. 
The intent and the desire on the part of communities is out 
there. Communities have a vision for what they would like their 
future to be.
    I think the Federal Government's role is in providing 
technical assistance, that success stories like we passed on 
that help them refine their vision, and then tools that help 
them implement the kind of code changes or zoning changes to 
actually effectuate those visions, because I think oftentimes 
communities feel a bit at a loss and then they feel as though 
they are fighting the Federal Government who inadvertently--if 
they are not helping them, they are surely--if they are not 
hurting them, they are surely not helping them. So I think we 
are here today to say we intend to make sure we are working not 
at cross purposes but reinforcing each other.
    Chairman Dodd. I mentioned these transportation costs and 
these mapping ideas. I presume either Secretary Donovan or 
Secretary LaHood will correct me on these if I am wrong. I am 
told that the average household spends roughly 20 percent of 
its budget on transportation, the average household in the 
country. Low-income households spend, on average, 55 percent of 
their disposable income on transportation. And we also know 
that once a transit line is proposed in an area, the value--
contrary to what I think people historically believe to be the 
case, the old notion of what side of the railroad tracks did 
you live on, and the old assumption was that if you are on the 
wrong side of the tracks, the value of your home, the economic 
conditions were less.
    Today, that is just the opposite. In fact, there are many 
communities now we know--and we can calibrate exactly--home 
values probably have gone up because, in fact, there has been a 
light rail line available. So we are watching values go up at 
the very time we are trying to promote affordable housing. And 
if we are looking at 55 percent of that disposable income of 
poor families is going to transportation, or 20 percent of the 
average family, do you have any quick answers on how we address 
this notion here of trying to make sure that there is going to 
be that affordable housing for people who are seeing such a 
large percentage of their income be consumed by transportation? 
Any quick comments on that?
    Secretary Donovan. Absolutely. I think you have hit on 
exactly the key issue here, which is what we have seen, the 
experience has been where you create transit-oriented 
development, you actually, by coordinated efforts of local, 
State, and Federal Governments to make investments in 
transportation, you create enormous real estate value, as well. 
And there is a great opportunity to use techniques like 
inclusionary zoning to capture some of that value right up 
front in the zoning code to create diverse housing options that 
include low-income workforce housing or moderate-income, as 
well as market-rate housing, which as we have learned over the 
last few decades in housing costs, is exactly the most 
sustainable kind of community from a housing point of view.
    But you can do that with relatively little cost in terms of 
traditional subsidy mechanisms because the value that you are 
creating in the real estate with greater density, with the 
access to transit there, gives you the opportunity to capture 
some of that value and to build it in.
    My own experience as a local housing official, that is 
exactly what we did, and we are very successful in creating 
those at a relatively low cost to government in terms of the 
subsidies that we had to provide.
    What I would add, though, is that one of the things that I 
saw--again, as a local housing official--is that many people 
around the country are interested in inclusionary zoning but 
don't have the skills or expertise to do the economic modeling, 
to understand how to get the details right at a local level, 
and this is one of the things with the $40 million that we 
proposed in our Sustainable Communities Initiative is exactly 
the kind of effort that we could support in terms of technical 
assistance and help to localities to say, look, it has been 
successful in these other communities. Here is how the models 
have worked. We can get you information and help that will 
allow you to establish local zoning codes that will actually 
work in this direction. So that is one example of the kind of 
thing that we could do.
    Chairman Dodd. I will turn to Senator Tester, but Secretary 
LaHood or Administrator Jackson, any quick comment on that?
    Secretary LaHood. I was in Houston recently, and from 
downtown took a light rail out to their medical center, where 
M.D. Anderson, the children's hospital, and the women's 
hospital are located. All along the way, they took housing that 
was dilapidated and now you see condominiums and other kinds of 
housing developing. So people who could not afford an 
automobile to get to their doctor or their hospital could take 
a light rail line, and as the rail line was developed and 
built, housing began to develop along with it.
    It is, if you build it, people will come. And when you do 
that, you don't have to have three automobiles. You may have to 
have one, but you can get on the light rail at the condominium 
and take it either to a medical center or you can go to 
downtown Houston. It works.
    Chairman Dodd. Administrator Jackson, anything?
    Ms. Jackson. Only quickly to emphasize the point you made, 
Mr. Chairman, which is in doing redevelopment, we also, I think 
as a Federal Government, need to be very mindful of not pricing 
those who most need that housing out of the market. Certainly 
people with money want to live in the most convenient places, 
and when schools are there, young families will come. But we 
have to be careful in redevelopment, and I think there are some 
tremendous opportunities for EPA to work on redevelopment 
clean-up issues that ensure that we replace mixed-income 
communities with new mixed-income communities, because 
otherwise I think we have a fundamental issue of fairness.
    Chairman Dodd. Thank you very, very much.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    One of my pet peeves as a farmer is the fact that we tend 
to build houses on the best farmland that we have, not marginal 
stuff, the absolute best stuff. And the redevelopment issue is 
an issue that I think can help stave off part of that.
    I guess my question as it applies, going around this 
country and seeing--and I think it applies everywhere, by the 
way, but seeing large groups of people where if you want to 
look at bang for the buck redevelopment in a city like 
Cincinnati, maybe, better than a city like Bozeman, but the 
question is, how are you going to determine how the funds for 
redevelopment are allocated? Just kind of give me some sort of 
idea on what your vision for that is.
    Secretary Donovan. The current proposal that we have for 
the Sustainable Communities Initiative is that we have a 
competitive process to start with. The idea here would be to 
pick a relatively small number of places, including urban and 
metropolitan communities as well as rural communities that have 
already begun some of these efforts, that are interested, as 
you heard Administrator Jackson talk about, efforts in Wyoming 
and elsewhere that have already started. So we would be looking 
through competition to allocate initially those funds.
    But the idea is in the longer term--I talked earlier about 
what we do with our consolidated plans right now and our long-
term transportation plans, that those aren't integrated. We can 
learn from these early competitions and integrate the best 
ideas into all of our block grant and other programs that we 
have. So that would be an initial effort.
    I would say also that I do think you make a very good point 
about farmland. Right now, 50 percent of all the people in the 
country that live in rural areas live within parts of 
metropolitan areas and the pressure on that farmland is 
enormous. And things like I talked about earlier, with the way 
that we finance multi-family developments, rental developments, 
we have a bias toward greenfield development in our programs 
because of the many restrictions that we place on it, whether 
it be commercial income, whether it be the cost limits that we 
set in those.
    There are many things that we do, many of them unwittingly, 
to push development into the kinds of rural areas that you are 
talking about, as well as policies that hurt the small towns in 
rural areas that have lost retail businesses where the second 
floors--I was talking to Tom Vilsack about this on a recent 
trip--the second floors of many of those towns are empty 
because we don't have good housing options, whether it be for 
seniors in those towns or others that could be used to keep 
those small towns vital.
    So I think there is a range of things that we would hope to 
demonstrate with these early competitions and sustainable 
communities that show how this is applicable in rural areas.
    Senator Tester. That is good.
    Secretary LaHood, you talked about transportation options, 
and I agree that it makes the livability index go up when you 
do. Are there modes of transportation that you feel we get a 
better bang for the buck initially by spending money on it, or 
what is your perspective on that? What I am talking about is--
and I suppose it varies from region to region, but light rail 
or putting more money into highways or bike paths or walking 
paths. Where are we somewhat focused? Or maybe we are not.
    Secretary LaHood. Our focus is going to be to work with 
these two extraordinary cabinet members and to do what I think 
Americans want us to do now, to do what has been done in 
Portland, Oregon, to do what has been done in some other 
communities, where you don't have to own three automobiles. If 
you want to bike to work, walk to work, take a bus to work, 
take a light rail to work, take a streetcar to work--offer 
people some options and some opportunities--and you can do this 
in neighborhoods like in Chicago.
    Obviously, you can't do it in all of Chicago, but you can 
carve out neighborhoods--and I have talked to the mayor about 
this--and create green neighborhoods that allow people to use 
lots of different forms of transportation. That is how you can 
really get a bang for your buck, and that is the direction that 
I think we want to go.
    Because I know that you represent a large rural State, I 
want to say this. We have some good rural transportation 
programs, and we want to work with you all to really expand on 
that, that allow for transit districts, maybe not a bus, but 
maybe a van to go out to a community, deliver somebody to a 
doctor's appointment, a grocery store. People that have lived 
in these small communities all their lives, they want to stay 
there and there are funds available through USDA, the Rural 
Development, for housing so people can stay in their 
communities. We have funds available that allow for rural 
transit to deliver people back and forth. So if they can't 
drive a car or don't own a car, can't afford a car, they don't 
necessarily need a car.
    Senator Tester. Right.
    Secretary LaHood. And they can still live in these rural 
communities. But I think that, again, is a very good bang for 
the buck and provides good transportation to people.
    Senator Tester. I appreciate that, Secretary LaHood. I also 
would say, as long as we are not thinking of stovepipes or 
silos anymore, when it comes to rural communities, there is a 
lot of opportunity, not only for your transportation system, 
but to partner up with the VA, IHS, senior groups, all those 
things, because there are some buses running around and it 
seems like there is not enough money to fund any of them well.
    Secretary LaHood. Yes.
    Senator Tester. But if you could team up----
    Secretary LaHood. Right.
    Senator Tester. Administrator Jackson, I guess my question 
revolves around the challenges that the EPA would have in being 
a part of this, because it seems as though housing is housing, 
transportation is transportation, and they are very complicated 
in and of themselves. But if you have a situation where you 
have a water issue with pollution or whatever, or an air issue, 
as far as that goes, how do you dovetail into this so it all 
happens in a timely fashion?
    Ms. Jackson. Well, we will embrace the opportunity to do 
so, Senator, and I think we have long had an Office of Smart 
Growth that for us is very much about breaking down the silos, 
even within the environmental protection field, and realizing 
that something that I think most people know intuitively. The 
absolute best strategy for protecting farms and forests and 
wetlands and the places that are valuable ecologically and 
economically is to have strong towns and cities and hamlets 
where people can locate and live in the vicinity of the land 
they work, respecting private property values, as well.
    So it actually--we do a lot of regulation at EPA and it is 
very important regulation and I often appear before other 
committees to defend the work we are doing. But one of the 
things I hope people leave here with is that we also understand 
that if we build strong towns, people can live there with 
adequate transportation and still have the rural quality of 
life that they want. I do not see them at all as incompatible. 
In fact, this is music to our ears at EPA.
    Senator Tester. Good. Thank you. Thank you, Mr. Chairman.
    Chairman Dodd. Thank you very much, Senator.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair. I 
appreciate the comments the panel has made.
    I wanted to explore a little more, Secretary Donovan, the 
Affordability Index. How do you see energy issues being 
incorporated into that structure?
    Secretary Donovan. I think there are two ways that it 
factors in, one directly, and one more indirectly. First of 
all, we don't have today, as I said in my testimony, a simple 
way for a consumer who is looking to buy a home or to rent a 
home to understand what their energy costs are going to be. So 
very specifically--and we have begun work with Secretary Chu on 
this, as well--to get to a more transparent, simple 
Affordability Index that includes what will you pay for utility 
costs. And what that would allow you to do is to have a market 
for energy efficient mortgages that actually works, that 
functions effectively.
    And ultimately what that does is to translate the savings 
that you can achieve through improvements, whether it be 
retrofits or in new construction to lower energy costs, allows 
you to price that in right up front and to get a benefit in 
that with a higher mortgage that will eliminate the up-front 
costs of putting in those improvements.
    So the kind of information and affordability index that we 
are talking about will help very directly to help consumers 
understand what they are buying, to understand what their costs 
are, and to begin to price those into financial markets in a 
way, I think, that could be extremely powerful in helping to 
develop the kind of energy efficiency that we are talking 
about.
    As an indirect measure, however, the location efficiency 
that we are talking about, as well, goes directly to energy 
use, as well, because as Administrator Jackson talked about, by 
reducing vehicle miles traveled, we also help to cut greenhouse 
gases. So by having an Affordability Index that includes 
transportation costs, the lower the transportation costs, in 
general, the lower the carbon emissions will be, as well.
    So in both of those ways, energy efficiency and location 
efficiency, the Affordability Index could be a big help.
    Senator Merkley. Do you see this as something that would be 
required with each house sale? Would it be on a voluntary 
basis? Would it be new homes only required, voluntary for 
others? Kind of how do you see it being rolled out?
    Secretary Donovan. We are looking at those options right 
now, and in fact, one of the things that we found, there are 
lots of localities that are already doing innovative things 
around this. I think initially, as we understand what the costs 
might be, I think there are lots of options that we have for 
doing it on a voluntary basis or working with localities that 
already have programs in place. We want to make sure before we 
go to any sort of requirement that there is an efficient and 
effective way to do this so that we don't add significant costs 
to the cost of buying a home up front.
    Senator Merkley. I just wanted to mention to you that one 
of the issues that I am working on is a low-cost lending 
facility that would enable homeowners, regardless of whether 
they are selling, to basically overcome the up-front costs of, 
if you will, the more energy efficient windows, et cetera, and 
then see that reflected back on their electric bills or perhaps 
on their property tax bills, depending on the partnership, and 
kind of a way to overcome that sticker shock on the front end, 
because if the savings are more than the payments on the loan, 
it doesn't cost you anything up front. So I am trying just to 
put it out.
    Secretary Donovan. I couldn't agree more, and that is why I 
think in the long run, if we develop a mortgage market that can 
pay for that, we don't need to subsidize it. It can be done 
just by the market itself. In the shorter run, there are both 
efforts with utility companies and on property taxes that we 
are looking at in many localities. We also are proposing a $100 
million Energy Innovation Fund in our budget proposal that 
would be used to support exactly those kind of financial 
innovations that you are talking about.
    Senator Merkley. Great. Great.
    Secretary LaHood, thank you very much. When you were here 
for the nomination process, I was asking you to take a look at 
the streetcars and the obstacles on the New Starts and you did 
so and you cut the red tape in a spectacular way, so thank you 
very much for bringing common sense to that issue.
    The issue I wanted to ask you about is in terms of it still 
seems easier to get funding for a lane of highway than it is 
for a rail line. A lot of what we have experienced in many 
places is you add a lane of freeway and a mile of freeway will 
only accommodate, when it comes to congestion, 100-plus cars 
being parked, which fill it up very fast if you haven't 
addressed every other point of congestion within the system. So 
we have this misleading sense that if you go from two lanes to 
three lanes, you increase the capacity by a third. If often 
doesn't happen, while rail pulls a lot of people off. Plus, we 
have the induced demand problem.
    Are there other things we can do to kind of help shift kind 
of--get the greatest bang for the buck in terms of how we 
invest in these different modes of getting people from home to 
work?
    Secretary LaHood. I think this hearing today highlights the 
idea that we need to have alternatives for people. Everybody, I 
think, gets it, as far as automobiles go, that we are not going 
to eliminate automobiles, but we need alternatives so that 
people have access to transit, whether that be a bus or light 
rail, or people have the ability, as I said, to walk or bike, 
or to take streetcars. That is the direction that we really 
believe is the wave of the future, and obviously you all--
certainly the Chairman feels that way and I think many of you 
do, also. We are in sync with you on that. We need to put some 
resources in that.
    And we also need to make sure that our New Starts program 
doesn't take forever to get funded in order to accomplish our 
goals of creating some light rail or more transit, more buses, 
more options for people, and we are working on that. I assure 
you that we are going to really streamline it so that, while we 
are not going to cut corners, it shouldn't take 10 years to get 
these kind of systems up and running in communities. I assure 
you it won't take 10 years under our Department because we have 
people now that realize that we can reduce the time that it 
takes to get these approvals.
    Senator Merkley. Thank you very much, Mr. Secretary. I 
wanted to mention that Oregon Ironworks just got a contract to 
provide streetcars to Tucson and we are hoping that other 
cities will be following. I also understand, I had invited you 
to come to Oregon and ride the streetcar, and I understand you 
are coming in July. We don't know yet--my team is working with 
your team. Hopefully, I will be able to join you and invite you 
on the streetcar, but thank you for coming to Oregon.
    Secretary LaHood. I look forward to that. Thank you.
    Senator Merkley. I am out of time, Ms. Jackson, so I will 
follow up in the future.
    Ms. Jackson. It is good to see you.
    Senator Merkley. Thank you.
    Chairman Dodd. Senator, if you want to take a few minutes, 
please. Senator Merkley, if you want to take another couple of 
minutes----
    Senator Merkley. I just wanted to give you a chance to 
expand on any of the pieces, as you are thinking about the 
housing, as you are thinking about the transportation, of 
creative ways that we can strengthen this partnership, things 
that you would--the message you would like us to hear as we 
work to assist in this effort.
    Ms. Jackson. Just that EPA is thrilled to be here, to be 
part of the partnership. We have had a long history of 
advocating and supporting and supplying assistance on these 
issues. We have a brownfields program which is all about 
essentially land recycling.
    I will leave you with one little thought that I think 
communities know, but John said it to me and so I repeat it 
everywhere I go, which is that if we want to know if a 
community is healthy in the environmental world, we look for 
indicator species that tell us whether or not a population of 
whatever species is dying in a water system or not. And when 
you want to know whether a community is healthy in terms of 
smart growth, look for pedestrians. In fact, pedestrians is a 
good indicator species for a healthy community. People feel 
safe enough to walk. They have somewhere to go when they walk, 
to the doctor or to a store. They have recreational 
opportunities. They have transit opportunities. So we are all 
about building a thriving community of pedestrians out there 
along with HUD and DOT, and I think if we keep that in the 
front of our minds, we will end up with some good policies. 
Thank you.
    Senator Merkley. Thank you. Thank you.
    Chairman Dodd. Thank you, Senator, very, very much.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. Thank you for 
holding this hearing and thank you for thinking about this 
legislation.
    I would like to thank the cabinet secretaries for being 
here and leading by example and putting down your arms or your 
stovepipes or whatever this is, because I think the more we get 
into this, what we are going to discover is that a lot of well-
intentioned efforts at every level of government, from 
municipal all the way up to the Federal level, have put us in a 
place where we are not incentivizing the kind of behaviors we 
are thinking that we want, and in many cases, the reverse is 
true. We discovered that in Denver as we began to think much 
more holistically about our planning process, our zoning and 
housing rules.
    I hope as we think about the legislation we put that in the 
forefront of our minds, that we want to create a set of 
incentives and disincentives that lead people to think broadly 
about these issues across various sectors--transportation, 
housing, environment, I would add education to that list, and 
there are probably other things as well--and also to think 
regionally in their approach.
    You mentioned, Secretary LaHood, the Metropolitan Planning 
Organizations. I couldn't agree with you more. I think we need 
to think about how to give our local and regional organizations 
more support in collaborating together.
    And to that end, the only question I really have is for 
you, which is how can we help you as you think about expediting 
the Federal funding process for projects that clearly meet by 
any measure sustainability and livability goals so we can get 
some of these things out of the chute and people can begin in 
communities that maybe aren't as ready as Senator Merkley is or 
mine so that we can begin to get them on board?
    Secretary LaHood. Well, Senator, first of all, you and I 
have talked about this before, but you have one of the most 
innovative mayors in Denver that I have ever met and he is 
thinking outside the box all the time about all these issues, 
whether it is education or housing or environment or 
transportation. He and I have had a number of discussions, as 
you and I have, and I want to commit to you that we are 
figuring out ways to streamline the process, because I know you 
have some important projects in your State and we are working 
with the mayor and others to make sure that everything is done 
correctly but that it doesn't take 10 years to get it done. We 
are committed to doing that at the Department and some of these 
things have just taken too long.
    And so, really, it is up to us to streamline these things 
and figure out ways to get the money out the door so we can get 
people to work and get these important projects out to the 
communities and we are committed to doing that.
    Senator Bennet. Secretary Donovan.
    Secretary Donovan. I was just going to add, to build on 
something Secretary LaHood had said in his testimony, I do 
think the reauthorization bill is an enormous opportunity for 
us to do that. There are things that we can do with our rules 
and our notices on a regulatory front without any changes in 
Congress on the legislative authorities we have. But there are 
certain things that will need legislative changes, as well.
    So we have begun through our partnership a process of 
literally going program by program to say, what are the 
barriers and what will we need legislative changes on, and I 
think the reauthorization bill is a perfect opportunity, not 
just to put these principles into action and speed the process, 
but also to help us get out of the way on a lot of these 
barriers.
    Senator Bennet. I hope you will let us know whatever it is 
we can do to help you get out of the way, because there is a 
lot of imagination out there, not the least of which is in my 
mayor, but lots of other local officials, as well, and I think 
if we have this opportunity to unleash that imagination and 
unleash the creative potential that is there, we really can get 
after some of these projects across the country and move past 
the sort of theory of government that says we will all be dead 
by the time we are done with this.
    So I just want you to know from my perspective--I know 
there are others here who feel the same way--whatever we can do 
to help, you just need to let us know.
    Thank you for your testimony today. We are very grateful.
    Senator Tester [presiding]. Further questions? Senator 
Merkley.
    Senator Merkley. No.
    Senator Tester. OK. I just want to thank you all for being 
here today. I want to echo the comments that Senator Bennet 
just said. If there are legislative things that we can do to 
help facilitate your success in working together and creating 
better communities, just let us know. Thank you very much for 
being here.
    We are adjourned.
    [Whereupon, at 10:54 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
           PREPARED STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD
    I'd like to thank you all for being here today. I hope you all had 
a painless commute, but if you didn't, I understand. I'm from 
Connecticut. And although we love our State, we know something about 
rough commutes. Take I-95. Over the last 50 years, average daily 
traffic in the Connecticut Southwest Corridor has increased more than 
sevenfold.
    Imagine you're on your way home from a hard day at the office. When 
you get there, your kids will want dinner, but at the rate traffic is 
moving, you're just hoping you can get there in time to make them 
breakfast tomorrow.
    For 20 minutes, 45 minutes, over an hour, you grit your teeth and 
grip the wheel harder as traffic crawls slowly along the highway. The 
air is clouded with exhaust from what seems like millions of cars 
barely moving--at almost three bucks a gallon, by the way. And things 
won't be any easier when you and your fellow motorists slowly grind 
along the same road to work tomorrow morning.
    Welcome to the daily commute for far too many residents of 
Connecticut.
    If you know me, you know how I feel about the importance of new 
transit options. I've been a longtime advocate for the Tri-City 
Corridor that will create new transit villages, get people off the 
roads, and revitalize our regional economy. We will accomplish this by 
initiating new commuter rail service and 110 mile-per-hour intercity 
train service between New Haven and Springfield, Massachusetts, with 
direct connections to New York City and, eventually, Boston. This 
project is one of my top priorities and I am going to work with leaders 
in my State and Secretary LaHood to get it done.
    But our communities are growing and changing. And too often, our 
approach to community development policy has been like one of those 
cars on the Merritt Parkway--trapped in gridlock, never moving. It's 
time to rethink the way we plan the futures of the places we live, 
work, and raise our kids.
    Between 1980 and 2000, the growth of the largest 99 metro areas in 
the United States consumed 16 million acres of rural land--that's about 
an acre for every new household. And with our population expected to 
grow by over 150 million people between 2000 and 2050, this land-use 
trend simply cannot continue.
    Before today, Federal policy has often treated transportation, 
housing, and environmental protection as separate issues. But that 
system of stove-piping simply isn't working. And the consequences of 
failing to address the way we plan our communities' growth are many. 
We'll continue to lose our rural land and open spaces. We'll see a 
worsening of the traffic congestion that has tripled over the past 25 
years. We'll continue to pay more and more at the pump at a time when 
our family budgets are already stretched to the max. We'll continue to 
push lower-income families further away from job opportunities. We'll 
continue to increase greenhouse gas emissions despite the urgent threat 
of climate change.
    In February, I wrote a letter to President Obama urging him to 
establish a White House Office of Sustainable Development to coordinate 
housing, transportation, energy, and environmental policies. The 
President has been a strong leader on these issues, and he has already 
shown a willingness to shake up a Federal Government that hasn't always 
succeeded when it comes to addressing related issues in a 
comprehensive, effective way.
    Today, following up on my letter, we've invited three members of 
the Cabinet who don't usually spend much time in the same hearing room. 
They'll be outlining for us the administration's commitment to 
sustainable development, a commitment that recognizes the importance of 
working across traditional boundaries to create more cohesive, 
collaborative policy.
    One important piece of the work we have to do is to provide more 
transportation choices for families.
    Few States suffer from worse traffic congestion than Connecticut, 
and the lack of good transit options costs families more than just 
inconvenience. In large part due to congested roadways and the lack of 
affordable housing and transit options, Connecticut ranks 49th in the 
country in keeping our young people in State. Meanwhile, living in a 
transit-rich neighborhood saves money--on average, as much as ten 
percent of a family's budget. This is particularly important for those 
living on fixed incomes or struggling to get by in a tough economy.
    Improving transportation isn't just about making a daily commute 
easier. It's about empowering people to access jobs and critical 
services, and making things just a little bit easier for those on a 
tight budget.
    It's a problem that hurts not only quality of life for our 
citizens, but opportunities for our businesses.
    So we must improve and expand bus and rail service, providing new 
choices for families who would no longer have to drive to work and 
creating space on the road for those who do. And we need to build more 
and better housing options near transit stations.
    For instance, my State has developed a program called 
HOMEConnecticut. It makes grants available for towns to plan Incentive 
Housing Zones for higher-density, mixed-income housing in downtowns and 
redeveloped brownfields, close to transit options and job centers.
    It's a strategic investment in our economy, our environment, and 
our quality of life. We've already begun to make progress in 
Connecticut--and we can do more across the country.
    This Committee is currently drafting legislation to provide 
incentives for regions to plan future growth in a coordinated way that 
reduces congestion, generates good-paying jobs, meets our environmental 
and energy goals, protects rural areas and green space, revitalizes our 
Main Streets and urban centers, creates and preserves affordable 
housing, and makes our communities better places to live, work, and 
raise families. Our bill will also create a competitive grant program 
to provide resources to some of the projects identified in this 
planning.
    There's a lot we can do on this Committee, and I look forward to 
continuing to work alongside Senator Shelby and our colleagues to get 
it done--but we can't do it alone. Just like I've urged the 
administration to do, I believe we in the Senate must work in a 
coordinated and comprehensive fashion. In particular, this committee 
will need to work closely with Senator Boxer's EPW Committee and 
Senator Rockefeller's Commerce Committee as we write the next surface 
transportation bill--legislation that I hope will eliminate stovepipes 
within transportation policy, and ensure that it helps to advance broad 
goals related to not just transportation, but community development, 
economic growth, energy, and the environment.
    Today, we will hear from witnesses who have already begun the 
important collaborative effort within the administration, public 
servants who are doing a tremendous job. This administration is today 
making a significant and welcomed commitment to sustainable development 
and livable communities, and I'm eager to discuss how we on this 
Committee can be partners in helping our communities plan for a 
prosperous future.
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Thank you, Mr. Chairman, for convening this important hearing.
    I also would like to thank our witnesses, Secretary LaHood, 
Secretary Donovan, and Administrator Jackson for joining us and for 
their hard work on these issues.
    As we sit in traffic longer, pay more for gas, and watch as scarce 
farmland is developed, how we manage our cities' growth and expansion 
must be both an economic and environmental priority.
    I've been encouraged by the Administration's commitment to 
promoting economic development and affordable housing options that 
create greener, more sustainable communities.
    I'm pleased to see that your agencies are working together on the 
Sustainable Communities Initiative.
    Cities across Ohio are already at the forefront of developing new 
and innovative ways to make themselves more environmentally friendly, 
energy efficient, accessible by public transit, and appealing for 
people of all ages and income levels.
    This sort of innovative thinking is particularly important in a 
manufacturing State like Ohio that has been hard hit by the economic 
downturn.
    The strategic investments that cities like Cleveland, Akron, and 
Springfield are making now in renewable energy, brownfield 
redevelopment, and housing rehab will pay off in the future.
    These projects will spur development and help create the good-
paying jobs in the high-tech and clean energy sector that will utilize 
the ability of Ohio's skilled manufacturing workers.
    These are jobs that will stay in the State rather than being 
outsourced abroad. And today, my State needs these stable, good paying 
jobs more than ever.
    In the 1950 census, Cleveland had a population of nearly a million, 
Cincinnati was over half a million, and 170,000 lived in Youngstown.
    Fast forward 50 years and you can see how much things have changed: 
Cleveland is now less than half its previous size, Cincinnati has lost 
more than 150,000, and today fewer than 75,000 live in Youngstown.
    Despite the population loss, these cities and others like them must 
maintain an infrastructure for a population they haven't had in over 50 
years.
    It is important that the initiatives all of you are working on 
utilize existing infrastructure--this means redeveloping neighborhoods 
and downtowns, investing in public transit, promoting green 
infrastructure, and ensuring affordable housing.
    In Ohio, one of the most important revitalization projects being 
discussed is resuming intercity passenger rail service between many of 
our cities.
    Rail in Ohio is essential to connecting the Midwest with the tens 
of millions living on the eastern seaboard. Proposed corridors will 
create jobs for Ohio's middle class workers, spur economic development 
in our communities, reduce the number of cars on the road, and help us 
achieve environmental goals that make our world more sustainable.
    However, it will take more than just investing in passenger rail to 
achieve the objective of an efficient, more comprehensive rail system. 
That's why communities--like Columbus and Cincinnati--are looking to 
expand surface transportation options through light rail and 
streetcars.
    The data on economic development tied to transit is clear and 
cities in my State are ready to bring their citizens the transit 
options they want.
    Economic and environmental objectives need not be in conflict. Done 
right, our economic and environmental policies can lead to both 
sustained economic growth and a cleaner environment.
    I look forward to hearing more about how we can capitalize on 
comprehensive rail and transit strategies to achieve the twin goals of 
more sustainable communities and job creation.
                                 ______
                                 
            PREPARED STATEMENT OF SENATOR MICHAEL F. BENNET
    Mr. Chairman and Ranking Member Shelby, thank you for holding this 
hearing. I also want to thank Secretary Donovan, Secretary LaHood, and 
Administrator Jackson for coming here today. We have heard a lot about 
the need to change the way we do business in Washington, and the 
collaboration between each of your agencies is evidence that we are 
beginning to remove barriers to achieving smart policy solutions across 
the country. Our success in supporting sustainable development is 
critical to our economic security, our environment, and our health.
    I am pleased to see the evidence of your collaborative thinking 
about how we can support and incentivize localities to work together to 
develop walkable, sustainable communities. I am particularly glad to 
see that the EPA has joined this effort. For too long, environmental 
sustainability has been an afterthought, rather than a guiding 
principal for our development. Across the West, our limited water is 
stretched between sprawling communities, and we need to do more to 
encourage smart, thoughtful planning in all aspects of development.
    However, as many of you have noted, there are substantial barriers 
to this kind of integrated development. Our housing and transportation 
agencies have not historically worked together, and it takes work to 
break down silos. From what I've heard today, you are all committed to 
doing that work. I look forward to seeing local communities reap the 
benefits of that cooperation, and I am willing to support you however I 
can along the way.
    I am also concerned that successful development too often fails to 
benefit long time residents of communities, who can no longer afford to 
stay in their neighborhood once it improves. Our current system doesn't 
do enough to reward innovative and creative ways to transform urban, 
suburban, and rural communities into diverse, livable neighborhoods. I 
hope that as we approach reauthorization of the transportation bill, we 
can work to better incentivize this kind of growth, and I welcome your 
input on how we can be successful on that front.
    We do not need to convince people of the benefits of smart 
development, as you have pointed out; the demand is far exceeding the 
supply. I look forward to working with you to identify ways this 
Committee can support this important work.
    During my time in Denver, I was able to work with Mayor 
Hickenlooper whose vision has helped transform many neighborhoods in 
Denver to embody the kind of development we are hoping to support with 
these sustainable development initiatives. The Denver Housing Authority 
is working with the City of Denver on a transit oriented HOPE VI 
project at South Lincoln homes. They are working to employ Smart Growth 
Principles, Energy Efficiency and Sustainability and Multi-Modal 
transportation planning. The project is located near a light rail stop. 
The redevelopment of South Lincoln homes is taking a broad view of 
sustainability, taking into account factors such as access to outdoor 
activities for health, and new approaches to storm water management 
that address water quality treatment and storage. This is the kind of 
collaboration and development that we want to incentivize around the 
country.
    The Sustainable Communities Initiative is an important step in 
towards facilitating planning. However, it is critical that we also 
fund projects like the one at South Lincoln Homes, and make it easier 
for localities like Denver to undertake such ambitious efforts.
    Thank you for taking the time to come here today, and thank you for 
your willingness to cooperate on these issues. I am encouraged by your 
dedication, and I look forward to working with all of you to make our 
communities even better places to live.
                                 ______
                                 

                  PREPARED STATEMENT OF SHAUN DONOVAN
                               Secretary,
              Department of Housing and Urban Development
                             June 16, 2009
    Good morning, Chairman Dodd and Members of the Committee. It is a 
pleasure to be here today to speak about the critical link between 
housing, transportation and environmental policy. I want to thank you 
and your Committee for your leadership in developing and pushing for 
innovative and integrated approaches to these issues. And I want to 
thank you for the opportunity to announce a landmark agreement between 
the three agencies before your Committee today that includes six 
``livability principles'' that will guide our work together.
    I think it is crucially important that the Federal Government speak 
with one voice on these issues, and these principles reflect that 
conviction. They represent a powerful statement of common goals, 
strategies, and purpose--not only for the three agencies you have here 
today, but for communities across the country whose vitality in the 
21st century depends on our ability to work together in partnership.
    Earlier this year, I was pleased to testify before the House with 
my colleague, Secretary Ray LaHood from the Department of 
Transportation. I'm glad I have the opportunity to share the table with 
him again today, because since that March testimony, we've taken 
important steps to improve coordination between our departments.
    I am especially pleased to have EPA Administrator Lisa Jackson join 
us today as a partner in this effort--providing further evidence of our 
commitment to collaboration and coordination across the entire Federal 
Government.
    It has been a remarkable several months, Mr. Chairman, since I 
first appeared before you at my confirmation hearing. As I said at the 
time, my number one job was to address the Nation's mortgage crisis. I 
believe we have begun to get real results with the ambitious 
foreclosure plan we've offered. Last week alone, 40,000 additional 
modification offers were made to borrowers, bringing the total number 
to over 190,000. But as I saw for myself when I traveled with the 
Chairman to Connecticut several weeks back, there remains a great deal 
more to be done. We still need the servicers to do their part in 
helping to keep Americans in their homes to complete more modifications 
and refinance more loans.
    But more than ever, I am convinced that solutions to the myriad 
challenges facing our housing markets must be addressed in a 
comprehensive way, to reduce our dangerous dependence on foreign oil 
and drive down energy costs for consumers and businesses alike.
    This means that HUD, in collaboration with our partner agencies, 
must find new, integrated solutions to the multi-dimensional challenges 
faced by cities and suburbs, and rural areas. This new approach will 
require collaboration across jurisdictional lines and enable 
metropolitan leaders to ``join up'' housing, transportation, and other 
policies to address the critical issues of affordability, 
competitiveness, and sustainability.
Problem Statement
    As I mentioned in my testimony before the House Appropriations 
Committee, HUD's central mission--ensuring that every American has 
access to decent, affordable housing--cannot be achieved in a vacuum. 
For all our housing challenges today, I believe that goal can be 
realized--but only in the broader context of housing, transportation, 
and energy costs and choices that American families experience each day 
in cities, suburbs and rural areas.
    The average American household now spends 34 percent of their 
annual budget on housing and 18 percent on transportation. More than 
half of their budgets are wrapped up in these two expenses alone.
    For low-income working families, the impact is particularly 
severe--transportation constitutes almost a third of household income. 
The extremes can be eye-opening--the average Houston-area household 
spends over $11,000 per year on transportation. That means less money 
for groceries, child care, doctor's visits. And in many metropolitan 
areas, working families are spending more on transportation than on 
housing.
    The connection between transportation options and home values is 
clear. As the recent housing downturn has shown, auto-dependent 
houses--that is, homes that virtually require the resident to have 
access to a car--are more vulnerable to price devaluation. Homes in 
distant or remote neighborhoods showed a greater decline in value, 
while some centrally located homes held or increased their value 
compared to regional averages. For millions of Americans, these 
declines can mean weakened retirement security, or inability to send 
their children off to college.
    In less-connected developments--for instance, many suburbs--while 
housing costs may be lower, transportation costs are higher--and the 
combination of housing and transportation costs now averages 57 percent 
of income for working families in metropolitan areas.
    The destructive effects of this mismatch between good housing 
choices and good transportation choices are particularly acute in 
metropolitan regions, which look very different from those that existed 
in the mid-1960s, when HUD was created and much of our transportation 
system was built. The populations of metropolitan areas and employment 
opportunities available in them are now widely dispersed, with only 22 
percent of the jobs in the top metropolitan areas located within 3 
miles of the central business district. That can mean less time spent 
with family and more time stuck in traffic.
    These changes have made our work at HUD that much more challenging. 
As decentralization has increased, the spatial mismatch between the 
location of affordable housing and employment and educational 
opportunities in metropolitan areas has worsened. Fewer low-wage 
families can find housing near their work, as affordable housing is 
often located in older urban and suburban areas. And businesses located 
in those areas are dependent on workers who can commute--shrinking the 
talent pool and incurring higher transportation and energy costs.
    As my colleague from EPA will tell you, decentralization and sprawl 
have a clear impact on the environment as well--through the loss of 
wetlands and open space, and increased greenhouse gas emissions.
    In recent years, we've made great progress in our understanding of 
the sources behind carbon emissions. As the American people are well 
aware, transportation accounts for a third of all greenhouse gas 
emissions. But I think most people would be surprised to learn that 
buildings account for almost 40 percent of our emissions--about half of 
which is through our homes. \1\
---------------------------------------------------------------------------
     \1\ Department of Energy 2008 Building Energy Data Book--buildings 
account for 38 percent of carbon emissions, residential buildings 
account for 20 percent.
---------------------------------------------------------------------------
    In response to these trends, we have made a strong commitment to 
energy efficient green building through the President's Recovery Act 
investments. We're directing nearly $4 billion to public housing 
authorities for public housing modernizations, including significant 
green and energy-efficiency upgrades. We're investing approximately 
$250 million more in energy-efficient retrofits of multi-family housing 
with project-based assistance, and emphasizing energy efficiency in 
Native American housing programs.
    We are also using the Neighborhood Stabilization Program to 
stabilize and revive neighborhoods with heavy concentrations of 
foreclosed properties and are using sustainability measures developed 
in partnership with EPA's Smart Growth program, such as access to 
transit and use of green building criteria, to help direct that $2 
billion resource.
    Looking beyond the Recovery Act, our Fiscal Year 2010 budget 
proposal includes initiatives to support sustainable growth. We propose 
to create a $100 million Energy Innovation Fund that will help catalyze 
a home energy retrofit market through innovative public and private 
sector financing, and reengineering FHA energy efficient mortgages to 
increase the number of homes retrofitted for energy efficiency.
    But as HUD works to make buildings more energy efficient, offer 
more affordable housing options that increase opportunity in our 
communities, and help working families facing foreclosure or rapidly 
declining home values, it's clear that we need to integrate our housing 
and transportation systems in a way that encourages smart land use, 
making our communities more resilient, more productive and more 
sustainable for the decades to come.
Sustainable Communities Initiative
    That is why our budget also includes a proposal for a $150 million 
Sustainable Communities Initiative, to be managed by our new Office of 
Sustainable Housing and Communities.
    As the Chairman has said, we need to coordinate climate change, 
energy, community development, housing and transportation policy in the 
most comprehensive, holistic way possible.
    I believe creating an Office of Sustainable Housing and Communities 
inside HUD to serve as a single point of contact with other Federal 
agencies is the best way we can achieve that goal. Already, these kinds 
of offices at our partner agencies have helped break down barriers to 
change--they have proven to be a successful model for interagency 
coordination and collaboration.
    First, HUD and DOT will jointly administer a $100 million fund to 
encourage metropolitan regions, via competition, to develop integrated 
housing, land-use, and transportation plans--and to use those 
integrated plans to drive the planning and decision making of 
localities, which will help increase transportation choices and reduce 
combined housing and transportation costs for American families.
    The goal of this initiative is not just to develop plans--it is to 
articulate a vision for growth tailored to specific metropolitan 
markets that Federal housing, transportation, and other Federal 
investments can support.
    Funding to these metropolitan regions would generally be used to 
support the development of integrated, state-of-the-art regional 
development plans that use the latest data and most sophisticated 
analytic, modeling, and mapping tools available.
    These efforts will benefit urban, suburban and rural communities 
alike. The 2007 American Housing Survey estimates that nearly 50 
percent of people who live in rural places today live within the 
boundaries of metropolitan statistical areas. This requires a level of 
integrated planning that spans jurisdictional boundaries in new and 
unprecedented ways.
    We can't afford to be territorial about these issues any longer.
    Our fiscal year 2010 budget also includes a proposal for $40 
million in grants that will be used to support metropolitan and local 
leaders in making market-shifting changes in local zoning and land-use 
rules. The grants will also assist States and localities to design and 
implement a variety of planning reforms at the local and regional 
levels.
    As we work towards an integrated planning process, we will also 
plan to recast the definition of ``affordability'' in America. With the 
costs of transportation now approaching or exceeding those of housing 
for many working families, we will work to jointly develop, with our 
partners in the Department of Transportation as well with EPA, a 
housing and transportation affordability index.
    Just as a potential car buyer can see on the window sticker how 
energy efficient an automobile is, we need the same thing for our homes 
and our buildings. An affordability index will empower consumers and 
businesses alike with the information they need to make informed 
choices about where they and how they live, and in the process helping 
to create a more dynamic, efficient marketplace.
    That is why we intend to share all this data, research, and 
evaluation with the private sector to catalyze innovation and maximize 
market efficiency.
    We will also conduct an intensive review of our respective programs 
to ascertain how to support the marriage of housing and transportation, 
and to emphasize location efficiency in all that we do.
    In housing programs, for example, perhaps we can give preference to 
projects that offer participants choices for public transit, employment 
opportunities, and other important advantages. We have begun to do that 
with the second round of Neighborhood Stabilization Program funding, as 
I described earlier. I intend to subject all of our programs--including 
FHA--to a rigorous review that determines how we can reorient the 
business of our department in support of this integrated planning.
    Finally, we are also establishing a jointly administered research 
and evaluation effort. Our budget proposal requests $10 million to 
support this research. This historic effort will aggressively engage on 
joint data development, information platforms, analytic tools, and 
research to better track housing and transportation expenditures by 
location. It will establish standardized and effective performance 
measures and engage in rigorous analysis of the transit-oriented 
development projects already in existence to identify best practices. 
And it will evaluate location efficient mortgages and energy efficient 
mortgages.
Partnership Update--Livability Principles
    I'm also pleased to report that since March, when we announced our 
agreement with DOT, we have made significant progress. Teams from our 
agencies are meeting on a weekly basis, and addressing each element of 
the partnership.
    Further, we are happy to announce that EPA is now a full partner in 
this effort. They will work with HUD and DOT to address water 
infrastructure issues, expand technical assistance to State and local 
governments, return brownfield sites to productive use, and address 
hazardous waste and other barriers to reinvestment in older 
communities.
    As a result of our agencies' work, I am pleased to join with my DOT 
and EPA colleagues to announce a uniform statement of livability 
principles. For the first time, these principles provide a uniform set 
of guidelines for each agency to formulate and implement policies and 
programs. More importantly, they mean that we will all be working off 
the same playbook to better serve American families who expect more 
affordable and sustainable choices in their communities.
    For the first time, the Federal government will speak with one 
voice on housing, environmental and transportation policy.
    The first principle--Providing More Transportation Choices--
addresses our need to expand the options available to American 
families, whether commuting to work, dropping children off at school, 
or running errands. It is no secret that providing safe, reliable and 
affordable transportation choices is essential to making a home 
livable. Expanding transportation choices by making public transit, 
biking, and walking viable options is also a key strategy towards 
reducing our dependence on foreign oil, improving the quality of the 
air we breathe, limiting the threat of greenhouse gas pollution and 
protecting the public health.
    The second principle--Promoting Equitable, Affordable Housing--is 
at the heart of HUD's mission. A livable community must be both 
equitable and affordable.
    Livability is about more than just being efficient--we must also be 
inclusive.
    In order for our neighborhoods to thrive, our regions to grow, and 
our Nation to prosper, we must support communities that provide 
opportunities for people of all ages, incomes, races and ethnicities to 
live, work, learn, and play together.
    The third principle--Increasing Economic Competitiveness--pinpoints 
the need to coordinate housing, transportation and environmental policy 
to make us more competitive and productive. Our Nation's ability to 
compete in a global economy is dependent upon how quickly and 
efficiently we can connect our labor force to education and employment 
opportunities. That mission depends on efficient housing and 
transportation patterns that ensure the timely delivery of goods and 
services.
    The fourth principle--Supporting Existing Communities--identifies 
the need to support community revitalization, build upon existing 
public investments, and preserve our Nation's rural land.
    This has been a historic role for HUD, through our block grant 
investments in cities, counties and rural areas. It makes no sense to 
ignore the vast resources ready to be rediscovered in America's cities 
and towns. And when we take advantage of these cost-effective 
opportunities to invest in our existing neighborhoods, we help mitigate 
the loss of open space, preserve farmlands and reduce commuting burdens 
on working families.
    The fifth principle--Expanding Partnerships and Leveraging 
Investment--focuses on increasing the effectiveness of American 
government at all levels. We want to boost the capacity of local 
communities to more effectively plan for future growth, by addressing 
housing, transportation, and other critical issues through coordinated 
work, and support the ability of local communities to think and act 
regionally.
    Finally, the last principle--Valuing Communities and 
Neighborhoods--brings the entire effort together. We must ensure that 
Federal investments support cohesive, safe, healthy and walkable 
communities, whether in cities, suburbs, or rural areas. Research shows 
that people who live in walkable communities are more active and less 
likely to be overweight, thus improving their health. \2\ As I said at 
the outset, each of the Federal partners represented today, while we 
manage separate programs, must be dedicated to the single principle of 
building strong, sustainable communities.
---------------------------------------------------------------------------
     \2\ A Study of Land Use, Transportation, Air Quality, and Health 
in King County, WA. Lawrence Frank and Company, Inc.
---------------------------------------------------------------------------
    So we have our playbook, Mr. Chairman: strong evidence that by 
working collaboratively across agencies--housing, transportation, and 
environment--we can better rise to the challenges before us, and 
implement the sort of innovative solutions that the American people 
deserve. Solutions that will allow us to protect our environment, 
support their mobility, and deliver safe, decent, affordable homes in 
which to live.
    But the real test of our commitment will be in putting the 
principles into action. I propose to do that in several ways.
    First, over the next few months I intend to implement a process at 
HUD, led by Deputy Secretary Sims, and our new Office of Sustainable 
Housing and Communities, to engage every program and every office, at 
headquarters and in the field, to identify the barriers that they 
encounter, whether institutional, regulatory, or statutory, in 
implementing these principles. I look forward to working with you to 
determine the best way to break down these barriers--be it through 
legislation or regulatory reform.
    I will also be asking for their ideas, suggestions and 
recommendations about how we can incorporate these livability 
principles throughout our programs. I will also reach out to our 
partners, and work with them, to adopt these principles as they invest 
in their communities.
    This must be an inclusive process--and an inclusive process depends 
on listening.
    Second, I will ask our program offices to incorporate these 
principles in HUD's next Annual Performance Plan, and our annual 
Management Plan, which represents the operating statement for the 
Department, both here in Washington and in 82 field offices around the 
country. Our field offices are a unique and important resource for 
bringing these principles to life in the communities we serve.
    Third, we look forward to sharing with you the performance measures 
that we are developing for each of these principles--so that they can 
be measured in tangible outcomes on the ground.
    As I told you during my confirmation, Mr. Chairman, I'm a numbers 
guy. I believe in evidence-based government and accountability. I've 
directed our new Transformation Office to develop strong performance 
measures for HUD's programs, and I expect nothing less as we turn these 
principles into policy.
    These performance measures will form the criteria for measuring the 
success of our proposed $150 million FY 2010 Sustainable Communities 
Initiative. We will also look at ways that these can be used to measure 
the results of other HUD programs.
    So I'm optimistic--that with these ideas, these new partnerships 
and the leadership of my colleagues here today--and you as well, Mr. 
Chairman--we are poised to build the stronger, more resilient, and 
sustainable communities Americans want and need in the 21st century.
    Thank you Mr. Chairman, and Members of the Committee--I look 
forward to answering your questions.
                                 ______
                                 

                    PREPARED STATEMENT OF RAY LaHOOD
                               Secretary,
                      Department of Transportation
                             June 16, 2009
    Chairman Dodd and Members of the Committee: Thank you for the 
opportunity to appear before you today to discuss the Department of 
Transportation's (DOT) activities in support of livable communities, 
comprehensive planning, and sustainable development.
    The President has made livable communities a key aspect of his 
agenda and the Vice President has also highlighted it in his Middle 
Class initiative. How a community is designed--including the layout of 
the roads, transit systems, and walkways--has a huge impact on its 
residents. Transportation and housing are the two largest expenses for 
the average American household. Reducing the need for motor vehicle 
trips and providing access to transportation choices can address this 
cost and lower the average household expenditure on transportation, 
freeing up money for housing, education, and savings.
    The Surface Transportation Authorization provides us with an 
opportunity to incorporate these important priorities into the Nation's 
transportation policy. My Department looks forward to working with 
members of Congress to make livable communities a centerpiece of the 
new authorization. I'll discuss that in greater detail later. I would 
like to first discuss the efforts we are undertaking in advance of 
reauthorization to foster livable communities.
    First, I am pleased to announce that Administrator Jackson of the 
Environmental Protection Agency has joined the Sustainable Communities 
Partnership between Secretary Donovan of the Department of Housing and 
Urban Development (HUD) and me to help American families gain better 
access to affordable housing, more transportation options, and 
healthier communities. This partnership will ensure that these housing 
and transportation goals are achieved while also better protecting the 
environment, promoting equitable development, and helping to address 
the challenges of climate change.
    Each agency brings particular expertise to the partnership that can 
help institute real improvements in American communities. The agencies 
have developed the following principles that will direct the collective 
efforts for implementing this program:

  <bullet>  Provide more transportation choices. Develop safe, 
        reliable, and economical transportation choices to decrease 
        household transportation costs, reduce our Nations' dependence 
        on foreign oil, improve air quality, reduce greenhouse gas 
        emissions, and promote public health.

  <bullet>  Promote equitable, affordable housing. Expand location- and 
        energy-efficient housing choices for people of all ages, 
        incomes, races and ethnicities to increase mobility and lower 
        the combined cost of housing and transportation.

  <bullet>  Enhance economic competitiveness. Improve economic 
        competitiveness through reliable and timely access to 
        employment centers, educational opportunities, services and 
        other basic needs by workers as well as expanded business 
        access to markets.

  <bullet>  Support existing communities. Target Federal funding toward 
        existing communities--through such strategies as transit 
        oriented, mixed-use development and land recycling--to increase 
        community revitalization, improve the efficiency of public 
        works investments, and safeguard rural landscapes.

  <bullet>  Coordinate policies and leverage investment. Align Federal 
        policies and funding to remove barriers to collaboration, 
        leverage funding and increase the accountability and 
        effectiveness of all levels of government to plan for future 
        growth, including making smart energy choices such as locally 
        generated renewable energy.

  <bullet>  Value communities and neighborhoods. Enhance the unique 
        characteristics of all communities by investing in healthy, 
        safe, and walkable neighborhoods--rural, urban, or suburban.

    The agencies are working together to identify how we can align our 
current programs to support these principles. We are considering what 
the critical elements of a livability plan are. We are looking at what 
performance measures can be used to determine whether the policy 
objectives have been achieved and examining whether data exists to 
support the measures.
    The second area where the Department has already begun to emphasize 
the importance of livable communities was through the American Recovery 
and Reinvestment Act (ARRA). ARRA created a discretionary fund of $1.5 
billion available through September 30, 2011, for the Department to 
make grants on a competitive basis for capital investments in surface 
transportation infrastructure projects that will have a significant 
impact on the Nation, a metropolitan area, or a region. Selection 
criteria were recently established for these Transportation Investment 
Generating Economic Recovery (TIGER) Discretionary Grants. Projects 
that promote greater mobility, a cleaner environment and more livable 
communities will receive priority over those that do not. This funding 
will open the door to many new innovative and cutting-edge 
transportation projects.
    Applications will be accepted until September 15, 2009, with awards 
to be announced no later than February 17, 2010. The TIGER 
Discretionary Grant program provides the opportunity to highlight 
projects that address livability and that make significant improvements 
to communities and regions.
Why Livability Is Important
    Our goal is to build livable communities, where safe, convenient, 
and affordable transportation is available to all people, regardless of 
what mode they use. For the past 50 years, most government investment 
in transportation has undermined this goal.
    In most communities, jobs, homes, and other destinations are 
located apart and far away from one another, necessitating a separate 
car ride for every errand. Coordinating transportation and land-use 
decisions and investments enhances the effectiveness of both and 
increases the efficiency of Federal transportation spending. Strategies 
that support mixed-use development, mixed-income communities and 
multiple transportation options help to reduce traffic congestion, 
pollution and energy use.
    A new focus on livability can help transform the way transportation 
serves the American people and the contribution it makes to the quality 
of life in our communities. Transportation can play an enhanced role in 
creating safer, healthier communities with the strong economies needed 
to support our families. As the population increases, we must identify 
new strategies to move people and goods within communities and 
throughout the Nation. Integrating transportation planning with 
community development and expanding transportation options will not 
only improve connectivity and influence how people choose to travel, 
but also lower transportation costs, reduce dependence on foreign oil 
and decrease emissions.
    Livable communities are mixed-use neighborhoods with highly 
connected streets promoting mobility for all users, whether they are 
children walking or biking to school or commuters riding transit or 
driving motor vehicles. Benefits include improved traffic flow, shorter 
trip lengths, safer streets for pedestrians and cyclists, lower 
greenhouse gas emissions, reduced dependence on fossil fuels, increased 
trip-chaining, and independence for those who prefer not to or are 
unable to drive. In addition, investing in a ``complete street'' 
concept stimulates private-sector economic activity by increasing the 
viability of street-level retail small businesses and professional 
services, creating housing opportunities and extending the usefulness 
of school and transit facilities.
    Mixed-use, compact development can result in an increase in walking 
and biking to destinations of short distances. Currently, American 
adults travel 25 million miles a day in trips of a half-mile or less, 
of which nearly 60 percent are vehicle trips. A 2005 Seattle study 
found that residents traveled 26 percent fewer vehicle miles in 
neighborhoods where land uses were mixed and streets were better 
connected. In these areas, nonauto travel was easier than in 
neighborhoods that were more dispersed and less connected. If a large 
share of the travelling public could walk or bike for short trips, it 
is estimated that the Nation could save over one million gallons of gas 
and millions of dollars in motor fuel costs per day. Reduced use of 
vehicles for these short trips will also lower emissions, as these are 
particularly polluting trips. The Centers for Disease Control and 
Prevention has extensively studied the benefits of physical activity 
like walking and biking, finding that it can improve the health of 
Americans and lower medical costs. A study in 2003 found that people 
who live in more sprawling areas generally weigh more and are more 
likely to have higher blood pressure than those that live in more 
compact areas. The average weight of individuals who live in the most 
sprawling areas can be as much as 6 pounds more than their counterparts 
in dense urban areas with access to more active transportation options.
    The elements of livability are important to both urban and rural 
communities. A transportation system that provides reliable, safe 
access to jobs, education, health care, and goods and services is every 
bit as important to rural communities as it is to urban areas. Remote 
locations present unique challenges to mobility, including ensuring 
access for older citizens to services and activities. Providing 
transportation choices can increase community mobility; but the types 
of options in rural areas might be different, focusing on a variety of 
intercity transportation investments. As economic development is 
undertaken in rural areas, focusing that development in town and 
commercial centers can increase access to necessities and enable one-
stop-shopping for many residents, thus reducing fuel costs and time on 
the road and enhancing a sense of community.
    For example, in Cheyenne, Wyoming, the City, County, and 
Metropolitan Planning Organizations (MPOs) developed PlanCheyenne which 
is an integrated community master plan that defines the Cheyenne area 
future growth. The plan places specific emphasis on integrating three 
major elements of the community's planning efforts: land-use, 
transportation, and parks and recreation and open space. The 
transportation component of the plan promotes developing mixed-use and 
activity centers along a network of principal arterials. Incidentally, 
EPA worked with Cheyenne to engage residents in developing policy 
options to implement PlanCheyenne's vision.
    Livability incorporates the concept of collaborative decision 
making. By involving the public early in the planning process and 
coordinating transportation activities with other activities related to 
healthy, sustainable communities, we improve the quality of life for 
all Americans. Collaborative, interdisciplinary decisions get good 
results, particularly more public support and reduced costs and time to 
complete transportation projects.
    Automobile congestion impacts our communities and quality of life. 
According to the 2007 Urban Mobility report prepared by the Texas 
Transportation Institute, traffic congestion continues to worsen in 
American cities of all sizes, creating a nearly $80 billion annual 
drain on the U.S. economy in the form of 4.2 billion lost hours 
resulting from travel delay and 2.9 billion gallons of wasted fuel. The 
report notes that congestion caused the average peak-period traveler to 
spend an extra 38 hours of travel time and consume and additional 26 
gallons of fuel annually, amounting to a cost of $710 per traveler. 
Although recent data suggest that travel, as measured by vehicle-miles 
traveled, has been less in recent months, we nevertheless need to give 
that time and money back to our economy and our citizens.
    Ways to greatly improve the efficiency of the entire transportation 
network include expanded and improved transit services; increased 
ridesharing; variable road pricing, managing freight movement and other 
demand management strategies; and managing our road and transit systems 
better through Intelligent Transportation Systems, and other traffic 
flow improvements. Other options include integrated transportation, 
land-use and housing planning policies that encourage mixed-use, 
compact developments that reduce the need for motor vehicle trips and 
support more transportation options to reduce travel distances and time 
through cities is a very important part of livability.
    The American Public Transportation Association (APTA) reports that 
increasing numbers of Americans took transit--an estimated 10.7 billion 
trips in 2008, the highest level of ridership in 52 years and a modern 
ridership record. And this trend continued, despite falling gas prices 
and an economic recession towards the end of the year. Increased 
transit ridership is having a real impact on the environment.
    There are great examples of communities that are implementing the 
concepts of livability and are planning for a positive future. For 
example, the Envision Utah Public/Private Partnership--partially funded 
by EPA--was formed to guide the development of a broadly and publicly 
supported Quality Growth Strategy, the Envision Utah Plan. This plan 
guides development and creates growth strategies that protect Utah's 
environment, economic strengths and provides a sustainable quality of 
life for its residents. Some of the major goals of this plan include 
increased mobility and number of transportation choices while providing 
a wide range of housing choices for Utah's residents.
    It was a priority for those involved in developing this plan to 
ensure that families could live near one another throughout their 
lives. This is only possible in an area where seniors can get around 
even when they have to curb driving. And it is necessary to have a 
range of housing choices that support people at all stages of life: 
apartments for young people just starting out, condos or small houses 
for young couples' first homes, larger homes for families and smaller 
homes again for those who no longer can or desire to take care of a 
large home. When there is a mix of housing types in a walkable 
neighborhood, the Envision Utah effort found that it is more possible 
for grandparents to live within walking distance of their 
grandchildren.
    Creating livable communities will result in improved quality of 
life for all Americans and create a more efficient and more accessible 
transportation network that services the needs of individual 
communities. Fostering the concept of livability in transportation 
projects and programs will help America's neighborhoods become safer, 
healthier, and more vibrant.
Importance of Federal Transportation Investment to Livable Communities
    Federal investments in transportation systems and infrastructure, 
including aviation, highways, rail, bus, ferries, and other public 
transportation, have been vitally important to the Nation's fastest-
growing metropolitan areas, small- and mid-sized cities, and in rural 
areas. These systems create links between home, school, work, health 
care, recreation areas, and other important destinations. Since 1984, 
the number of cities with publicly funded passenger rail service has 
more than doubled. A decade ago, two out of every five residents in 
rural and small urban communities did not have access to public 
transportation. Since then, the Federal Transit Administration (FTA) 
has been instrumental in bringing new public transportation options to 
dozens of these communities. Tribal areas also benefit from FTA 
investments that afford greater accessibility and mobility options.
    Federal transportation investment has increased mobility and 
accessibility throughout the country. Businesses benefit from easier 
access to suppliers, a larger labor pool, and expanded consumer 
markets. These factors can reduce transportation costs both for 
business-related passenger travel and for the movement of commercial 
freight. Access to larger numbers of workers, consumers, and suppliers 
also increases the attractiveness of a community to businesses. These 
investments, combined with initiatives aimed at making the most 
efficient use of existing capacity, will measurably improve quality of 
life in America.
    Changes in demographics, shifts in land-use patterns, and the 
emergence of new job markets require different approaches to managing 
mobility, particularly for people who may not be able to use existing 
transportation services due to age, disability, location, or other 
factors. Federal funding for public transportation has provided a 
framework around which nine Federal departments are collaborating to 
deliver community-based transportation services under various 
authorities. These services, which may be operated by private nonprofit 
groups and community organizations, offer a lifeline to persons with 
disabilities, older Americans, and individuals and families who do not 
possess automobiles.
    The Job Access and Reverse Commute (JARC) program was established 
to address the unique transportation challenges faced by welfare 
recipients and low-income persons seeking to obtain and maintain 
employment. Many new entry-level jobs are located in suburban areas, 
and low-income individuals have difficulty accessing these jobs from 
their inner city, urban, or rural neighborhoods. In addition, many 
entry level-jobs require working late at night or on weekends when 
conventional transit services are either reduced or nonexistent. A 
report published a few years ago by APTA noted that small urban and 
rural communities may be particularly at risk, as nearly 2/3 of the 
residents in these areas have few, if any, transportation options. APTA 
found that 41 percent of the residents of small urban and rural 
communities have no transit available to connect them to jobs and 
services, while another 25 percent lived in areas with below average 
transit services.
    Transit-oriented, mixed-use development has the potential to 
provide efficient and convenient options for employers, developers, 
young professionals and families in many large and small cities around 
the United States. It also allows people to age in place, and in the 
same communities as their children and grandchildren, Transit-oriented 
development also has the potential to contribute significantly to the 
revitalization of downtown districts, foster walkable neighborhoods, 
and offer an alternative to urban and suburban sprawl and automobile-
focused commuting. Moreover, transit-oriented development (TOD) in 
areas with existing transit service can turn subway stops and commuter 
rail stations into hubs for mixed-use development where workers can 
walk (or connect by a short bus ride) to jobs, housing and services. 
Over the past year, these communities have not seen as high foreclosure 
rates as their car-dependent counterparts.
Linkage Between Transportation, Housing, and Livable Communities
    Clearly the linkage between public transportation and urban 
development is crucial, particularly when it comes to low-income 
housing. Over the past 5 years, HUD and DOT's FTA have explored 
opportunities to coordinate housing and transportation planning and 
investment decision making. A June 2003 roundtable hosted by the 
National Academy of Sciences focused on possible data sharing and 
development of Geographical Information Systems (GIS) platform by the 
two agencies.
    Following the roundtable, HUD and DOT entered into a June 2005 
Interagency Agreement (IAA) to help communities realize the potential 
demand for transit-oriented housing. The IAA was aimed at closing the 
gap between the projected demand for housing near transit in particular 
metropolitan regions, and realizing the development of that housing in 
proximity to new or existing transit corridors in these regions.
    The IAA provided support for a jointly funded research study on 
Realizing the Potential: Expanding Housing Opportunities Near Transit. 
The report, published in April 2007 by the Center for Transit Oriented 
Development, included five case studies examining the role of public 
transportation in the location of affordable housing in Boston, 
Charlotte, Denver, Minneapolis-St. Paul, and Portland. More recently, 
DOT and HUD released a report to Congress in September 2008 on Better 
Coordination of Transportation and Housing Programs. This report 
outlines strategies to continue and expand coordination in the areas of 
mixed-income and affordable housing choices near transit.
    In addition, DOT and HUD have been working as partners to continue 
development of coordinated, integrated strategies, methods and policies 
to promote the role of public transportation in affordable housing. Key 
among these policies and strategies is the integration of 
transportation and housing planning activities.
    Presently, transportation planning is carried out at the regional 
level in metropolitan and urbanized areas or at the State level for 
rural and nonurbanized communities, whereas housing planning is 
conducted at the local municipal/county level. Bringing these disparate 
groups together to integrate planning of housing development and 
transportation improvements is fundamental to locating new and 
preserving existing affordable housing in proximity to public 
transportation. This effort will include:

  <bullet>  Outreach to and capacity building for stakeholders;

  <bullet>  Convening of expert roundtables and other forums;

  <bullet>  Development of appropriate tools to support location 
        efficiencies;

  <bullet>  Promotion of incentives for housing related transit-
        oriented development within FTA programs;

  <bullet>  Identification of appropriate research topics;

  <bullet>  Development of performance measures, information systems, 
        and reporting mechanisms; and

  <bullet>  Development of a Best Practices Manual--a multi-scenario 
        ``how-to'' manual for promoting development of mixed-income 
        housing near transit, to be published by the end of the year.

    DOT and HUD are developing a work plan for this effort, which will 
provide for briefings between the two agencies to better understand 
each other's programs and how their community development activities 
can be aligned for greater efficiencies of Federal investments.
    The Department has engaged its Volpe National Transportation 
Systems Center to provide technical and logistical support, and is 
using FTA's regional offices in this effort to facilitate better 
coordination with our Federal partners, MPOs, State departments of 
transportation, and grantees in communities where the planning is 
actually carried out.
    Finally, the Government Accountability Office is completing an 
examination of this effort in both agencies. The Department will 
certainly ensure that recommendations are appropriately acted upon when 
the report is published. Although limited to affordable housing, the 
results of this DOT-HUD effort will greatly influence and support the 
Department's broader Livability Communities Initiative and the DOT-HUD-
EPA Partnership.
    DOT has also initiated a Federal Interagency Working Group on 
Transportation, Land-Use, and Climate Change in which HUD and EPA are 
participating. The goal of this 13-agency working group is to identify 
opportunities to better align Federal programs and resources to achieve 
greenhouse gas (GHG) reductions through land-use solutions. The working 
group is currently developing performance metrics, research, and data 
needs for several areas where the Federal Government can begin to align 
efforts to address GHGs. The results of this work will greatly benefit 
DOT's livability efforts.
DOT's Livable Communities Initiative
    I am committed to improving the livability of our Nation's 
communities and, in fact, shortly after I was confirmed as Secretary of 
Transportation, I charged the Department's Policy Office with 
developing a DOT-wide Livable Communities Initiative. I am pleased to 
note that DOT already had numerous programs that foster livability--
everything from funding for bicycle and pedestrian facilities, ensuring 
safety, protecting and enhancing the human and natural environment, 
connecting remote communities to needed services, to reducing the 
impact of freight transportation, congestion mitigation, and traffic 
management.
    The ARRA also provided opportunities to promote livability. States 
must spend three percent of their allocation on the Transportation 
Enhancement Program, which is a primary source of bicycle and 
pedestrian infrastructure funding. The remainder of the ``highway'' 
money is flexible, permitting States and metropolitan areas to spend 
this funding on roads, bridges, transit, bike and pedestrian 
infrastructure, freight and passenger rail, or ports.
    Additional actions would enhance transportation's contribution to 
strong and connected communities. First, the range of transportation 
choices available to all Americans--including transit, walking, 
bicycling, and improved connectivity for various modes--must be 
expanded. American businesses must also have effective transportation 
to meet their logistical needs so that they can continue to provide 
jobs for their surrounding communities. All segments of the population 
must have access to safe and convenient transportation options to get 
to work, housing, medical services, schools, shopping and other 
essential activities including recreation. Just as important, our 
transportation investment decisions need to be consistent with policies 
concerning greenhouse gas emissions. And efforts must be renewed to 
rescue other adverse effects of transportation on all aspects of the 
natural and human environment.
    Although we are working to finalize the details, my goal through 
DOT's Livable Communities Initiative is to enhance the economic and 
social well-being of all Americans by creating and maintaining a safe, 
reliable, intermodal and accessible transportation network that 
enhances choices for transportation users, providing easy access to 
employment opportunities and services. The initiative will need to 
build on innovative ways of doing business that promote mobility and 
enhance the unique characteristics of our neighborhoods, communities, 
and regions.
    Under the Livable Communities Initiative, my intent is to:

  <bullet>  Better integrate transportation and land-use planning to 
        inform decision making about public investments;

  <bullet>  Foster multi-modal transportation systems and effective 
        multi-modal connections;

  <bullet>  Provide more safe transportation options to improve access 
        to housing, jobs, health care, businesses, recreation, public 
        services, and social activities;

  <bullet>  Increase public participation in coordinating 
        transportation and housing investments;

  <bullet>  Improve public health by reducing noise and air pollution 
        emissions and by increasing opportunities for physical activity 
        through walking and bicycling;

  <bullet>  Plan for the unique transportation needs of individual 
        communities; and better accommodate the needs of our aging 
        population.
Reauthorization of Surface Transportation Programs
    The current authorization for Federal surface transportation 
programs--the Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU)--expires at the end of 
Fiscal Year 2009. The timing is such that we have a window of 
opportunity to think differently about transportation and propose bold, 
new approaches to improve the livability of our Nation's communities as 
part of reauthorization.
    Whatever legislative approach is pursued, we will be taking a hard 
look at potential changes to metropolitan and statewide transportation 
planning processes to ensure that they improve livability. We believe 
it is important to include the six principles agreed upon in the DOT-
HUD-EPA partnership to guide our authorization discussions.
    The ongoing collaboration with our partners at HUD and EPA will 
improve the linkage between housing, water, and transportation 
investments and is a piece of the overall effort to combine land-use 
and transportation planning. This shift in development of 
transportation plans can provide for much more efficient Federal 
spending and can ensure a holistic approach to transportation systems--
breaking away from the planning silos between transportation and land-
use plans.
    The Administration's surface transportation reauthorization 
proposal is still under development, and I look forward to discussing 
all the options for making livability a real centerpiece of the final 
proposal.
    Thank you for the opportunity to appear before you today. I look 
forward to working with the Congress, HUD, EPA, and the transportation 
community to expand livability within our communities, including the 
connections between housing, transportation, and the environment.
                                 ______
                                 

                 PREPARED STATEMENT OF LISA P. JACKSON
                             Administrator,
                    Environmental Protection Agency
                             June 16, 2009
    Mr. Chairman and Members of the Committee, I am delighted to appear 
before you today with my colleagues Secretaries LaHood and Donovan to 
discuss our Agencies' work on sustainable development. Mr. Chairman, I 
salute you for your long-time interest and work on the issues we are 
here to discuss today.
    We are happy to announce EPA's entry into the Partnership for 
Sustainable Communities. I thank Secretaries Donovan and LaHood for 
their leadership on this issue. EPA has been working for years on 
issues of smart growth and this Partnership represents a real leap 
forward for not only our agencies, but for the American people.
    The Partnership recognizes that the work of our agencies is 
connected. In designing or improving our communities to be sustainable 
for the long term, mobility, housing, and environmental issues are 
entirely interconnected. Working across agencies gives us an 
opportunity to share knowledge, resources, and strategies that will 
improve public health and the environment, cut costs and harmful 
emissions from transportation, and build more affordable homes in 
communities all over the country.
    Most importantly, this Partnership acknowledges that the missions 
of our three agencies do not exist in separate, distinct bubbles. Where 
you live affects how you get around, and how you get around often 
affects where you live. Both decisions affect our environment. In order 
to have the most effective greenhouse gas reduction strategy, we should 
have a strategy to reduce vehicle miles traveled. In order to provide 
truly affordable housing, we should take into account what residents 
must pay for transportation, energy, and water.
    Mr. Chairman and Members of the Committee, our presence together 
here today demonstrates to you and the American people that we are 
jointly committed to the Sustainability Principles that have been 
previously discussed. This partnership will help advance each of our 
missions. It represents a new approach for Federal agencies. Our desire 
to work together on these issues is real.
    There has been a long debate in this Nation about the appropriate 
Federal role in relation to land-use decisions. While it is true that 
development decisions are, and should be, primarily made at the local, 
State, and tribal level, it is equally true that Federal policies, 
rules, and spending influence development patterns. We have an 
interest--indeed, an obligation--to ensure that our actions do not 
favor development that adversely affects the environment and public 
health.
    When development contributes to the pollution of our waterways, 
dirties the air we breathe, contaminates our drinking water, or 
disproportionally harms disadvantaged communities, then it is a Federal 
responsibility in general--and specifically an Environmental Protection 
Agency (EPA) responsibility--to protect Americans from these problems.
    If we are smarter about how we grow, we can make America's big 
cities, small towns and rural communities more resilient to the 
economic and environmental challenges facing America. Through this 
partnership, our agencies will work together to help make sure our 
Nation has:

  <bullet>  Well-designed, energy-efficient, and affordable housing to 
        meet the needs of Americans regardless of their income, race, 
        or geographic location;

  <bullet>  An integrated transportation, land-use, and environmental 
        planning system with more options for reaching jobs, schools, 
        parks, medical care, and other basic needs; and

  <bullet>  Waterways that are clean and safe for drinking, swimming, 
        and fishing, air that is safe to breathe, and land that is free 
        of toxic contamination.

    We have created a framework that will guide the cooperative 
development of policies, regulations, spending priorities, and 
legislative proposals.
    Around the country, communities are looking for ways to grow that:

  <bullet>  Use less land and energy;

  <bullet>  Provide safe, affordable housing options for people of all 
        incomes and at all stages of life;

  <bullet>  Make it easier for people to get to their destinations on 
        foot, by bike, or by public transit; and

  <bullet>  Direct growth to developed areas with existing 
        infrastructure.

    Together, these development strategies emphasize environmental, 
economic, cultural, and social sustainability. Our collective 
implementation of those policies at State, local, and tribal levels 
will assure that we accommodate our Nation's anticipated growth in 
smarter, more sustainable ways.
    Vibrant and prosperous towns and cities will attract the residents 
and business investment needed for robust growth. When growth flows 
naturally to these places, it makes it easier to protect environmental 
resources such as forests and wetlands, and helps preserve wildlife, 
farms, rural landscapes, and scenic beauty.
    Smart growth principles are equally important in urban, suburban 
and rural areas. A few weeks ago I visited Wyoming, where EPA's Smart 
Growth Program helped Governor Dave Freudenthal initiate a statewide 
conversation about the effects of the State's energy boom on its 
environmental resources--how it was affecting the water quality in 
Wyoming's renowned fishing rivers or encroaching on wildlife areas 
prized by hunters. In one of the least densely populated States in the 
Nation, residents sometimes found themselves snarled in traffic. The 
jobs were not in places the employees could afford to live. Smart 
growth approaches to problems like these are just as relevant in small 
town rural America as they are in New York, New Haven, Birmingham, or 
Houston.
Climate Change
    At EPA, our focus will be on encouraging smart growth approaches to 
protect human health and the environment. This includes using smart 
growth as a tool to combat climate change.
    Combined, buildings and transportation contribute 63 percent of our 
Nation's greenhouse gas emissions. Smarter growth, combined with green 
building techniques, can significantly reduce that number.
    Climate change is no longer an academic discussion. We don't have 
the luxury of a far-off day of reckoning. The world's leading 
scientists predict noticeable, perhaps even drastic, changes within our 
lifetime. These changes will only get worse the longer we delay taking 
action.
    We already see:

  <bullet>  More drought in some regions, which may increase the length 
        and severity of fire seasons;

  <bullet>  Stronger storms, which not only increase the risk of 
        flooding but can overwhelm overtaxed sewer infrastructure; and

  <bullet>  Sea-level rise, which may have significant ramifications 
        for the millions of Americans who live along our coasts.

    We must start adapting to these potential changes now, but we also 
need to take more action to reduce greenhouse gas emissions to lessen 
the severity of these changes over the long term.
    EPA is taking aggressive action to reduce our impact on the climate 
while strengthening our economy. The President has committed to 
doubling within the next 3 years our use of clean energy. And, we have 
set an ambitious goal of cutting more than 80 percent of greenhouse gas 
emissions by the year 2050.

  <bullet>  Renewable fuels will help us get there. We are working to 
        strengthen standards that will increase the amount of renewable 
        fuels that will be used in transportation.

  <bullet>  Greener buildings will help us get there. EPA is addressing 
        the many environmental and health impacts of buildings--
        partnering with key players to improve green building 
        standards, support needed research, provide better information 
        to the public and pilot better practices in the field, while 
        taking the lead in greening our own facilities. In 2008, EPA 
        helped HUD build over 6,000 ENERGY STAR homes for the 
        affordable housing community.

  <bullet>  Alternative sources of power will help us get there. The 
        EPA Green Power Partnership program works with more than 1,000 
        large and small U.S. companies, offering advice, technical 
        support, and tools to assist in the purchase of renewable 
        energy.

  <bullet>  More efficient cars will help us get there. Later this 
        year, working with the Department of Transportation's National 
        Highway Traffic Safety Administration, EPA intends to propose 
        the first-ever car and SUV greenhouse gas emissions standards 
        for 2012-2016 that will greatly reduce greenhouse gas emissions 
        from new cars.

    But, even all of these approaches--as important as they are--will 
not be enough. Transportation uses 70 percent of the oil consumed in 
this country and roughly 20 percent of U.S. CO<INF>2</INF> emissions 
come from passenger vehicles. More efficient vehicles and cleaner fuels 
simply will not be enough to meet our greenhouse gas reduction and 
energy independence goals. Reducing the number of miles we drive must 
be part of the solution.
    There's no need to wait for some technological breakthrough to 
reduce the amount of driving we do. The technology to help people drive 
less exists today--it's called smart growth. We know that investing in 
public transportation, making communities more walkable, and creating 
more housing near job centers results in less driving.
Clean Air
    It is also critical to build on the progress in air quality we've 
seen since the passage of the Clean Air Act in 1990--and smarter growth 
can help get us there. As we move forward, the continued integration of 
air quality, land-use, and transportation planning will be important.
    For over 30 years, EPA has been the lead Federal agency in 
coordinating State and local air quality planning for all emissions 
sources, including transportation. EPA helps State and local agencies 
calculate emissions benefits from many of the strategies that support 
sustainable communities--better transit, increased carpooling, and 
other travel options. These resources can help meet Clean Air Act air 
quality requirements and build better, more livable communities.
    EPA has worked in partnership with DOT for over 15 years to better 
integrate air quality, land-use, and transportation planning through 
the Clean Air Act conformity program. The transportation conformity 
program requires State and local agencies to regularly evaluate the 
impact of new transportation activities on air quality. Transit and 
sustainable planning play a key role in helping meet State air quality 
goals.
Atlantic Station Redevelopment
    But it is important that in addition to talking about lofty goals, 
we can show the impact in a real world example: Atlantic Station is a 
138-acre redevelopment project in Atlanta, Georgia. The former Atlantic 
Steel Mill site that--with EPA's help--was reclaimed and redesigned to 
help residents and workers significantly reduce the amount they need to 
drive. One of the largest brownfield redevelopments in the U.S., this 
national model for smart growth includes 6 million square feet of LEED-
certified office space, 2 million square feet of retail and 
entertainment space, and 1,000 hotel rooms, and it will have between 
3,000 and 5,000 residential units upon full build-out.
    A shuttle system that carries 1 million people a year circulates 
between a commuter rail stop and Atlantic Station. Space is reserved 
for light rail service in anticipation of future transit investments. 
Residents of Atlantic Station drive an average of less than 14 miles 
per day, compared to 32 miles a day for the average Atlantan.
    Although Atlantic Station is an example of a project that was 
developed, in part, to support State and local air quality goals, it 
was also good for water quality. Because it is compact, Atlantic 
Station used much less land than a conventional development with the 
same amount of housing and commercial space. This efficient land use 
reduced annual stormwater runoff by almost 20 million cubic feet a 
year.
Water Infrastructure
    One of my priorities is to restore and protect the quality of 
America's waterways. The impressive results from Atlantic Station show 
that well-planned development can be part of the solution to water 
quality problems and is a core quality of sustainable communities. 
Another key aspect of sustainable communities is making sure that we 
have reliable and safe water infrastructure. Having cost-effective and 
reliable drinking water, wastewater treatment, and stormwater 
management systems is integral to protecting our health, economic 
vitality and environment.
    EPA is poised to significantly increase its funding for wastewater 
infrastructure through the Clean Water State Revolving Fund (SRF). The 
FY 2010 Budget requests $2.4 billion, a $1.7 billion increase over FY 
2009 levels, for the Clean Water SRF. This additional funding will help 
communities meet the challenges of upgrading aging wastewater and 
stormwater infrastructure. As part of our partnership with DOT and HUD, 
we will work with States and tribes to harmonize water infrastructure 
investments with transportation and housing investments to promote 
smarter growth.
    EPA will encourage States to direct additional funds to cost-
effective, environmentally preferable approaches to infrastructure 
planning, design, repair, replacement and management that also promote 
more sustainable communities. EPA will provide guidance and technical 
assistance to States to encourage them to use Clean Water State 
Revolving Funds for projects using green infrastructure and low-impact 
development approaches to stormwater management.
    In addition to improving water quality, the EPA's Clean Water State 
Revolving Fund can support expanded housing choices and efficient 
transportation. For example, in my State of New Jersey, the State 
provides lower interest loans for water infrastructure projects that 
serve developments that mix housing with retail, offices, and other 
amenities and provide residents with transportation choices, such as 
transit villages.
    In rural areas, New Jersey focuses on replacing failing septic 
systems rather than building expensive new sewer systems that can be 
catalysts for sprawl. New Jersey has shown how Federal funding can be 
used in both rural and urban areas to help communities develop and grow 
sustainably.
    Although Federal statutory authority does not require States or 
tribes to adopt State Revolving Fund practices and policies that favor 
smarter growth, EPA will provide technical assistance to those States 
that wish to do so.
Healthy Communities and Equitable Development
    Importantly, this new partnership with HUD and DOT will help us all 
make communities healthier. With our coordinated approach, the tide of 
growth and development will raise all boats. I am especially interested 
in working with my colleagues from DOT and HUD to revitalize 
neighborhoods that have suffered from decades of disinvestment.
    Many properties available for development in urban and rural 
communities are brownfields--properties where redevelopment may be 
complicated by the presence or potential presence of a contaminant. 
There are estimated to be more than 450,000 brownfield sites 
nationwide. EPA's Brownfields and Land Revitalization Program is 
designed to empower States, tribes, communities, and other stakeholders 
to assess, clean up, and sustainably reuse brownfields sites. To date, 
EPA's Brownfields Program has supported assessments at more than 13,800 
properties and clean-up of 366 properties, trained more than 5,000 
residents living near brownfields communities for environmental jobs 
with a 64 percent job placement rate and an average hourly wage of 
$13.81, and leveraged over $13 billion in cleanup and redevelopment 
funding.
    Redevelopment of such sites is often difficult--particularly for 
disadvantaged communities. Because such sites are usually served by 
infrastructure and transportation, they represent redevelopment 
opportunities that are critical to transforming years of disinvestment 
into a future of prosperity.
    Healthy communities are not only environmentally healthy, they are 
also socially and economically strong. They offer employment and 
educational opportunities, safe and affordable homes, access to 
recreation, health care, and other needs of daily life, all close 
enough together that people can choose to safely walk, bike, or take 
transit instead of driving.
    This type of neighborhood is particularly important for children 
and people who are physically unable to drive, or those who just find 
it too expensive to buy and maintain a car. One study found that while 
the average American family spends roughly 19 percent of its household 
budget on transportation, households with good access to transit spend 
just 9 percent. In too many poor communities, walking and bicycling are 
neither safe nor pleasant, and public transit is just as often 
unreliable or nonexistent.
    A healthy neighborhood is one where residents can get to the 
grocery store or the doctor's office without a car if that's what they 
want. It's one where they can walk to the park to meet their friends, 
bike to school, or take the bus to their job so they can read on their 
way to work.
    These kinds of neighborhoods exist all over the country, and market 
demand for them is strong. In fact, the strong demand has driven up 
housing costs in many smart growth areas, too often putting them off-
limits to lower-income residents.
    EPA is already working to create more environmentally responsible 
affordable housing in these neighborhoods. Coordinating with State 
housing officials and the regional Council of Governments, EPA's Smart 
Growth Program recently helped four communities in the Hartford, 
Connecticut, area figure out how to use State affordable housing funds 
to meet multiple goals. This project brought together local and State 
policy makers, developers, and advocates to develop guidelines for 
housing programs to create mixed-income, mixed-use, green, compact 
developments with a range of transportation options.
    One redevelopment--on the site of a 27-acre abandoned shopping mall 
in Manchester, Connecticut--will receive EPA land revitalization funds 
to help create a plan that protects an adjacent stream while making it 
a key feature of the project. The design will allow residents to enjoy 
this natural resource and support a healthier watershed.
    As partners, EPA, DOT, and HUD can help communities make sure that 
publicly financed housing is attractive, safe, and convenient to daily 
destinations and that residents will have a range of transportation 
options.
Conclusion
    As a Nation, we face the most serious economic downturn since the 
Great Depression. Every American is anxious about what that means--not 
just for their future, but for future generations as well. We are all 
working around the clock to get the economy moving again.
    At the same time that we face this economic crisis, there is not a 
moment to lose in protecting public health, the environment, and 
confronting the rapid advance of climate change.
    Thank you for the opportunity to appear before you today. Working 
together, Congress, EPA, DOT, and HUD have a great opportunity to 
achieve the economic and environmental goals President Obama has 
outlined for our Nation.
        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                       FROM SHAUN DONOVAN

Q.1. The Sustainable Communities Agenda and Small Towns--In 
Connecticut, in addition to cities like Hartford and New Haven, 
we have many small towns.
    It seems clear that promoting transit-oriented development 
can benefit large suburban communities and cities, but how can 
this sustainable communities agenda benefit small towns, such 
as Torrington, CT, as well as rural communities?

A.1. Answer not received by time of publication.

Q.2. Housing Affordability--In the recent housing crisis, 
foreclosure rates on homes near transit have been lower when 
compared to homes not near transit, and housing prices near 
transit have remained relatively stable. This suggests that the 
affordability of housing is not just about housing cost, but 
about the combined cost of housing and transportation.
    What can the Federal Government do to help consumers get 
the housing and transportation cost information they need to 
make informed housing choices?

A.2. Answer not received by time of publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SHELBY
                       FROM SHAUN DONOVAN

Q.1. Secretary Donovan, many of the goals set forth by the 
Sustainable Communities Initiative would seem to further 
priorities that would result from decisions traditionally made 
by State and local officials, such as the type of zoning and 
city planning required for many of these high density projects. 
While some communities will certainly wish to pursue these 
designs, others may not believe this would be in their best 
interests. What safeguards will be put in place within HUD to 
ensure the continued independence of local officials in the 
design of their communities? If State and local officials do 
not pursue the initiatives and priorities of this office, will 
there be any negative consequences as it relates to other 
Federal programs or funding?

A.1. Answer not received by time of publication.

Q.2. Secretary Donovan, one of the factors cited as a reason 
for the Federal Government to take action in promoting housing, 
which offers the convenience of the option to walk for many 
goods and services, is an identified pent-up demand for these 
type of communities. Given this, and given the goal of 
including affordable housing within these developments, how 
does HUD plan to ensure that affordable housing goals do not 
crowd out other Americans who are seeking to reside in these 
communities? Additionally, how do the costs of providing 
affordable housing within these settings compare with the cost 
of providing affordable housing in other types of communities 
within the same metro area?

A.2. Answer not received by time of publication.

Q.3. Secretary Donovan, obviously the needs and capabilities of 
rural communities are going to differ greatly from the needs 
and capabilities of more urban areas. If a larger mixed use 
development may not be economically viable in a smaller, more 
rural community, how will HUD ensure that these communities 
will be able to participate in the Sustainable Communities 
Initiative if they wish to so?

A.3. Answer not received by time of publication.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR SCHUMER
                       FROM SHAUN DONOVAN

Q.1. Secretary Donovan, as you know well from your time as 
Commissioner of the Department of Housing Preservation and 
Development in New York City, urban areas face particular 
challenges in trying to make their existing housing stock, and 
especially their affordable housing, more green.
    What plans does HUD have to try and incentivize owners of 
affordable housing to undertake these greening efforts in 
existing projects?

A.1. Answer not received by time of publication.

Q.2. Each of you have outlined the need for a coherent national 
policy, with long-term goals and indicators of success in 
working to develop more sustainable, energy efficient, and 
clean communities, that needs to be coordinated across each of 
your agencies.
    As you know, my State has one of the largest urban areas in 
the country, as well as some of the most rural. How are the 
policy initiatives that your respective agencies are 
undertaking going to affect both urban and rural areas? How do 
they fit into the vision of a coherent national policy on 
greening, energy efficiency, and emissions reduction? How can 
Congress help you to achieve this goal?

A.2. Answer not received by time of publication.
                                ------                                


       RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                       FROM SHAUN DONOVAN

Q.1. Let me recognize and applaud the Administration's 
sustainable and livable communities effort to bring together 
transit, housing, and environmental benefits. Which agency will 
serve as the base for this multi-agency effort? Have you 
thought about coupling HUD and DOT's efforts with additional 
funding from sources such as the Community Development Block 
Grant program?

A.1. Answer not received by time of publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BENNET
                       FROM SHAUN DONOVAN

Q.1. A nice new neighborhood that is far away from good jobs 
and good schools, will not be a nice neighborhood for long. How 
can Washington's policy expertise and resources be harnessed 
most effectively with local leaders who understand a local jobs 
market and who know where the good schools are? I'm impressed 
with what I'm seeing from this panel--the Administration 
obviously intends to take an integrated approach. But local 
housing and urban planning experts have the applied knowledge 
of how particular communities work--how transit can interact 
with affordable housing, for instance. In short, how does 
Washington do a better job of helping particular cities 
integrate their planning decisions?

A.1. Answer not received by time of publication.

Q.2. Efforts to support mixed income development fall short 
without good schools. Secretary Donovan, how can you work with 
local education officials to strategically support school 
reform and to construct new schools in locations that 
complement innovative development efforts?

A.2. Answer not received by time of publication.

Q.3. I am glad you include rural communities in your plans for 
sustainable development. Can you talk specifically about the 
challenges to employing sustainable development initiatives in 
rural areas? Are there opportunities to work with the 
Department of Agriculture on these efforts?

A.3. Answer not received by time of publication.

Q.4. A critical component of effective development is buy-in 
and participation from residents. Will the incentives for 
regional planning include incentives to integrate local 
residents into the planning process?

A.4. Answer not received by time of publication.

Q.5. As you know, most HOPE VI projects have been successful at 
leveraging public and private resources to displace the 
concentrations of poverty we have seen in our cities. But 
initiatives like HOPE VI, though critically important, can run 
into local trouble when local residents worry that losing 
affordable housing stock will displace people and break apart 
communities. In short, what's good for a community in the long 
run can be terribly disruptive in the short run. What lessons 
have we learned from past setbacks at managing local 
expectations, that we can apply moving forward? How can HOPE VI 
be made to work better at managing local expectations?

A.5. Answer not received by time of publication.

Q.6. The HUD budget proposal for the Sustainable Communities 
Initiative to provide $100 million for Metropolitan Planning 
Organizations and cities or counties that receive CDBG and HOME 
funds to collaborate on regional plans that integrate housing, 
land use, and transportation, and $40 million to provide 
challenge grants for local land use changes that support 
regional objectives.
    I can see the value of these from recent Denver experience. 
For example, the City, MacArthur Foundation, Enterprise 
Communities, Denver Foundation, and local banks have 
capitalized a $15 million ten-year Transit-Oriented Development 
(TOD) Fund, which will provide financing to preserve and create 
affordable housing within a half mile of rail service and a 
quarter mile of high-frequency bus routes. The fund will target 
existing federally assisted rental properties; existing 
unsubsidized rental properties currently affordable to 
households below 60 percent of area median income; and 
currently vacant or commercial properties with desirable 
locations for new affordable housing. The Fund will enable 
holding properties for up to 5 years, which is considerably 
longer than most similar funds allow, but given the market 
conditions near transit stations, it will provide the maximum 
flexibility to secure long-term subsidies to preserve existing 
rental housing. But at $15 million, it still is underfunded for 
the need and impact.
    Is that the type of programmatic activity you would seek to 
finance under these programs? Can you give specific examples, 
and the funding criteria and outcome measures you would expect 
to apply, and how would you operationalize them?

A.6. Answer not received by time of publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                       FROM SHAUN DONOVAN

Q.1. As you know, there is a Section 8 funding shortfall 
happening to a number of PHA's around the country. The Boise 
City/Ada County Housing Authority has notified me that based on 
the funding notice it received in May from HUD, for the period 
retroactive to January 1, 2009, it is approximately $1 million 
short and is preparing to terminate 400--500 families from 
assistance. While I don't have information to indicate the full 
scope of the problem nationwide, it is my understanding that a 
significant number of PHA's are facing similar decisions. While 
some appeal funding has been set aside, considering that 
families receiving assistance are among our most vulnerable, 
and landlords count on rental payments to offset their property 
costs, and communities stand to lose more economic stability in 
an already unstable economic climate, what is the Department 
prepared to do to address a crisis which may greatly exceed the 
funding that has been made available to honor existing 
assistance contracts?

A.1. Answer not received by time of publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CORKER
                       FROM SHAUN DONOVAN

Q.1. Due to the challenges in the financial sector, hospitals 
that are looking to expand their facilities or construct new 
facilities that are needed in certain areas are unable to get 
the financing necessary for these projects. Two HUD loan 
program, Section 232 and Section 242, provide much needed 
assistance to our health care facilities and have played an 
important role in filling the credit void that exists for many 
borrowers.
    Based on your interpretation of eligibility, is it possible 
for psychiatric hospitals to be eligible for either of these 
programs? If so, what are the terms of eligibility? If they are 
not, please offer you comments on the expansion of these 
programs to include these facilities.

A.1. Answer not recieved by time of publication.

Q.2. We've heard from constituents who were informed by HUD 
that the Section 232 mortgage program would soon, if it has not 
already, stop insuring qualified medical facility loans. If 
this is the case, can you explain HUD's rationale for this 
decision?

A.2. Answer not recieved by time of publication.

Q.3. We certainly believe that there are still significant 
challenges in the real estate market, and until confidence in 
this market returns, buyers will be sidelined and our economy 
will continue to experience stress. Contributing to the 
uneasiness some buyers feel about conditions in the market are 
certain HUD positions that may have exacerbated the uncertainty 
currently existing in the housing market. One example has been 
HUD's position regarding home service contracts, treating them 
as a settlement service under RESPA.
    What rationale does the Department have for classifying 
these contracts as a settlement service?
    Why did HUD question the propriety of selling these 
contracts in residential real estate transactions? Does HUD 
believe they afford consumers protection against unexpected 
home repairs?
    Does HUD believe that home services contracts, unrelated to 
the lawful consummation of a residential real estate 
transaction, should be exempt from RESPA, or should Mr. Ceja's 
letter be rescinded?

A.3. Answer not recieved by time of publication.

Q.4. In urban centers across the country, there are obsolete 
corridors--particularly commercial ones--where the population 
has moved along, but we still have infrastructure in place and 
not being utilized. We see this in places across my own State 
of Tennessee where large retail centers or strip mall type 
areas stand abandoned.
    How do we find ways to create appropriate incentives for 
private sector development in these types of areas that help 
overcome the costs associated with EPA or ADA regulations that 
often point builders in a different direction?

A.4. Answer not recieved by time of publication.

Q.5. In the City of Memphis, an estimated 10 percent of the 
residential, buildable lots are vacant and the difficulties in 
land consolidation and the environmental clean-up often 
required is prohibitive for new builds. On the residential side 
of things, do you have any suggestions as to what are the most 
appropriate incentives to encourage development and 
utilization? Should there be any distinction between 
residential areas and commercial areas in your view?

A.5. Answer not recieved by time of publication.

Q.6. Do you believe that coordination between land use and 
transportation infrastructure use needs to be mandated when 
planning occurs? Far too often such planning happens in a 
vacuum. How can we encourage reinvestment in aging 
infrastructure instead of building new?

A.6. Answer not recieved by time of publication.

Q.7. Do you believe that under the Uniform Relocation Act the 
rules and regulations have made the replacement of older multi-
family units prohibitive, even with multiple incentives 
included? Do you believe that such regulations promote an 
acceptance of very substandard housing in certain urban areas?

A.7. Answer not recieved by time of publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                        FROM RAY LaHOOD

Q.1. The Sustainable Communities Agenda and Small Towns--In 
Connecticut, in addition to cities like Hartford and New Haven, 
we have many small towns.
    It seems clear that promoting transit-oriented development 
can benefit large suburban communities and cities, but how can 
this sustainable communities agenda benefit small towns, such 
as Torrington, CT, as well as rural communities?

A.1. Livability and transit-oriented development are not just 
for large urban and suburban communities. Key principles of 
livability/sustainable communities are to support existing 
communities and to value communities and neighborhoods. Our 
objective is to ensure that all communities--rural, urban, or 
suburban--be sustainable in healthy, safe and walkable 
neighborhoods, and to target Federal funding in communities to 
increase community revitalization and efficiency of public 
works investments, and safeguarding rural landscapes. To 
provide a decision framework for this, there needs to be a 
transportation planning process in all areas that calls for 
coordination across planning disciplines. State and local 
officials and transportation service providers, working through 
this planning process, may develop better coordinated 
transportation, housing, and land-use plans.
    There is no ``one size fits all,'' whether we are talking 
about livability and sustainability, or transit-oriented 
development. Many small towns and rural areas currently do not 
have transportation options available for their residents. 
Without access to automobiles or trucks, these residents may be 
disconnected to the routine activities that provide for quality 
of life, such as medical appointments and shopping. A seamless 
and integrated intermodal transportation network is as 
essential to the quality of life in small town and rural areas 
as it is to large metropolitan areas; only the scale is 
different.

Q.2. Transportation Reauthorization--When we talk about 
livable, sustainable communities, we tend to think of cities 
and towns where people have real travel choices: they can walk, 
bike, and take public transportation. We know the availability 
of safe, reliable public transportation helps to remove cars 
from the road, which reduces congestion, reduces our dependence 
on foreign oil, and reduces greenhouse gas emissions. Your 
department and my Committee both want to write a transportation 
bill that serves the needs of America in the 21st century. One 
of our priorities must be to increase the number of people who 
have access to first-rate public transportation.
    What can we do in the next transportation bill to make this 
happen and significantly grow transit ridership?

A.2. What makes any public transportation system ``first-rate'' 
is reliability, convenience, accessibility, and safety. Of 
course, everyone thinks that providing more funding to purchase 
more vehicles and equipment with the latest technology is the 
solution. But that's only part of it. We need to optimize the 
operations and maintenance of our transit systems, to maintain 
a state of good repair, and ensure that local and State funding 
sources provide adequate funding for appropriate levels of 
transit services.
    Transit agencies need to have a stronger voice in 
transportation planning to improve the modal balance in 
transportation investment. Neighborhoods configured to provide 
a mix of land uses provide easier access to nonauto travelers 
and promote mobility for all travelers. Investment in 
sustaining our transportation infrastructure will also 
stimulate private sector economic activity, increasing the 
viability of street level retail, creating housing 
opportunities, and extending the usefulness of transit 
facilities. Improving the accessibility and connectivity of our 
public transportation network will influence more people to 
choose transit.

Q.3. New Starts Program--The New Starts program, as authorized, 
includes land use and economic development as key evaluation 
criteria. However, the dominant criteria evaluated by the 
Federal Transit Administration has been cost-effectiveness.
    As we look at rewriting the New Starts program for the next 
transportation bill, do you have any thoughts as to how we can 
elevate the land-use and economic development criteria, and 
therefore encourage the kind of mixed-use development around 
transit stations that we are talking about today?

A.3. One of my key initiatives is livability and better tying 
transportation investments to land-use planning, economic 
development, and environmental goals.
    The New Starts process has considered transit supportive 
land use and weighted it equally to cost-effectiveness in the 
evaluation and rating of project justification since TEA-21. 
Since its addition as a criterion in SAFETEA-LU, FTA has been 
considering the economic development effects of a project as an 
``other factor'' in the evaluation and rating process. FTA has 
been working for some time to develop a better approach for 
measuring and evaluating the economic development effects of 
projects, and recently put forth one possible approach for 
public comment. FTA received over 80 comments on the approach 
and is currently reviewing them before putting forth a formal 
proposal.
    Under my direction, FTA has also recently taken steps to 
immediately give all of the New Starts project justification 
criteria more comparable weights in the evaluation and rating 
process. On May 19, 2009, FTA published a Federal register 
notice describing its proposal for reweighting the criteria to 
comply with the SAFETEA-LU Technical Corrections Act. Under the 
proposal put forth by FTA, the weights would be: mobility 
benefits 20 percent, economic development 20 percent, land use 
20 percent, cost-effectiveness 20 percent, environmental 
benefits 10 percent, and operating efficiencies 10 percent. FTA 
is currently considering the comments received and will put 
forth a final proposal in the very near future.

Q.4. Senior Mobility--Secretary LaHood, in your testimony, you 
mentioned the importance of mobility for older Americans. Older 
Americans represent the fastest growing demographic in the 
Nation and, as indicated in your testimony, there is an 
increased desire of older adults to ``age in place'' near their 
families and friends. Without adequate public transportation, 
it is too easy for these individuals to become isolated or 
forced into nursing homes.
    How can the livability agenda help ensure that seniors or 
others with special transportation needs have access to 
transportation that meets their needs?

A.4. Implementation of strategies that incorporate the 
principles of livability will result in improved quality of 
life for all Americans, including older Americans. As the 
population ages, we must identify new strategies to move people 
within communities and throughout the Nation. Integrating 
transportation planning with community development will improve 
mobility by providing transportation choices that serve 
community needs, and improve accessibility and connectivity. 
Likewise, planning for housing and companion services--
including that required for those with special needs--around 
existing and planned transportation infrastructure makes for 
efficient and effective use of those investments. This form of 
integrated planning will strengthen the ties between 
transportation providers and the communities they serve.
    Local governments, transportation providers, and all 
stakeholder groups will learn new ways to think and relate to 
one another, resulting in the materialization of strategies in 
many forms: multi-agency partnerships; more customer-driven 
approaches to transportation delivery; innovative financing 
approaches; etc. The livability agenda is focused on serving 
the transportation needs of all Americans--drivers and 
nondrivers alike--and values the characteristics of individual 
communities and neighborhoods.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR SCHUMER
                        FROM RAY LaHOOD

Q.1. Secretary LaHood, as you know, New York City's extensive 
infrastructure system consists of nearly 1,500 highway bridges 
and over 6,000 miles of highway. Furthermore, our transit 
system in New York City, made up of over 700 miles is the 
largest system in the entire country.
    In light of the increasing significance that Mass Transit 
has for the economy of New York, and the entire country, what 
efforts has the Department of Transportation undertaken to 
maintain and upgrade this critical infrastructure? How can 
Congress provide the Department with more tools to do this work 
in a cost-effective way, while at the same time meeting a more 
rigorous energy efficiency standard?

A.1. Maintaining our Nation's transportation infrastructure in 
a ``state of good repair'' is among the Department's highest 
priorities. Not only do we strive to ensure that federally 
funded assets are being taken care of and in sufficient working 
order throughout their useful life--that is, that taxpayers are 
getting a good return on their investment--but that the 
transportation systems they support and that all Americans 
depend upon on a daily basis are safe and reliable.
    New York City, in particular, is home to our Nation's 
largest public transportation system. It is hard to imagine the 
impact to the Nation's economy if transit in New York could no 
longer provide the basic mobility that so many millions of 
riders depend upon daily.
    The Federal Transit Administration (FTA) provides funding 
to New York City and other transit systems across the country. 
In FY 2009, Congress appropriated nearly $886 million in 
formula funding for transit capital projects in the 
metropolitan New York City area--a significant amount which 
went to recapitalization. New York City was further 
appropriated another $460 million for specific investments to 
modernize its rail system. The American Recovery and 
Reinvestment Act (ARRA) provided another $1.18 billion in 
formula funds for the region and $254 million for New York City 
rail recapitalization.
    While these are significant investments, they are not 
enough. A recent FTA study on the reinvestment needs of the 
Nation's seven oldest and largest transit agencies identified a 
backlog of $50 billion to bring their capital infrastructure to 
a state of good repair. Clearly, Congress needs to consider the 
maintenance and modernization needs of transit--and highway--
infrastructure in the next reauthorization of a Federal surface 
transportation program.
    In the meantime, FTA has embarked on a wide-ranging 
initiative aimed at better understanding the state of repair of 
the Nation's transit systems and how improved asset management 
and other practices might help mitigate the backlog. In 
addition to the aforementioned rail modernization study, FTA 
has established a working group with the industry to 
disseminate best practices and consider a common definition, or 
standard, for achieving a state of good repair. In July, FTA 
brought together large and small transit operators from across 
the country to further discuss issues--and ideas--associated 
with this important topic. FTA will soon be publishing a 
national and international scan of transit asset management 
practices, as well as an expansion of the rail modernization 
study to include other systems.
    Importantly, in light of recent transit accidents that have 
regrettably resulted in the loss of lives, FTA is particularly 
interested in working with the transit industry to identify 
those capital assets which are most ``safety-critical'' and 
determine how their maintenance and replacement can be the 
focus of local prioritization and decision making. Moreover, we 
need to ensure that the replacement and modernization of our 
transit systems result in investments which are energy 
efficient and reduce greenhouse gas emissions. We are excited 
about the Transit Investments Generating Greenhouse Gas and 
Energy Reduction program provided for by ARRA, and look forward 
to a similar program in reauthorization.

Q.2. Each of you have outlined the need for a coherent national 
policy, with long-term goals and indicators of success in 
working to develop more sustainable, energy-efficient, and 
clean communities, that needs to be coordinated across each of 
your agencies.
    As you know, my State has one of the largest urban areas in 
the country, as well as some of the most rural. How are the 
policy initiatives that your respective agencies are 
undertaking going to affect both urban and rural areas? How do 
they fit into the vision of a coherent national policy on 
greening, energy efficiency, and emissions reduction? How can 
Congress help you to achieve this goal?
A.2. The elements of livability impact both urban and rural 
communities. A transportation system that provides reliable and 
safe access to jobs, education, health care, and goods and 
services is equally important to rural and urban communities. 
Remote locations present unique challenges to mobility, 
including ensuring access for older citizens to services and 
activities. Providing transportation choices can increase 
community mobility and allow seniors to age in place. Fostering 
land-use planning that promotes clustered commercial centers 
can enable one-stop-shopping for many residents, reducing fuel 
costs and time on the road, and enhancing a sense of community.
    Additionally, transportation planning is presently carried 
out at the regional level in metropolitan and urbanized areas 
or at the State level for rural and nonurbanized communities, 
whereas housing and land-use planning is conducted at the local 
municipal/county level. Bringing these disparate groups 
together to integrate planning of housing development, land-
use, and transportation improvements is fundamental to locating 
new and preserving existing affordable housing in proximity to 
public transportation.
    About 28 percent of the greenhouse gases generated in the 
United States are attributable to transportation, so this is an 
area in which we need to make progress. We must reduce the 
amount of energy needed to operate our transportation system, 
and that means moving more of our freight by energy-efficient 
means such as rail and water, and making more strategic 
investments for passenger travel. We need to accelerate the 
introduction of energy-efficient cars and trucks.
    To support these goals, we must be strategic about our 
investments in existing infrastructure by supporting ventures 
that will improve street connectivity and transit-oriented 
development, which not only improve livability but reduce the 
carbon footprint of our transportation system.
    We need to ensure access and promote integrated planning 
processes to make certain that the transportation system makes 
a positive contribution to enhancing the livability of 
communities. These are the types of investments that the 
Federal Government should be making on existing infrastructure 
to ensure that we are obtaining a high-return while effectively 
contributing to a state of good repair of our existing 
infrastructure. Congress can support these efforts by making 
them a priority in the surface transportation authorization 
process.
                                ------                                


       RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                        FROM RAY LaHOOD

Q.1. New Jersey has many transit stations located along the 
Northeast Corridor. If towns along this line want to promote 
transit oriented development, they have to work with and get 
permission from AMTRAK. Will you be coordinating your 
initiative with AMTRAK so they are a partner in transit 
oriented development? New Jersey also has many commuter rail 
lines that share the tracks with freight rail companies. Can we 
count on the Federal Railroad Administration along with the 
freight rail companies to cooperate with this effort?

A.1. Although funding under the Federal Railroad 
Administration's (FRA) High-Speed Intercity Passenger Rail 
(HSIPR) Program is intended for the development of high-speed 
and intercity passenger rail service, not commuter rail 
service, the HSIPR Program recognizes the benefits of commuter 
rail service and transit-oriented development. The HSIPR 
Program's application evaluation criteria takes into account a 
proposed project's integration with local transit networks at 
train stations and the proposed project's promotion of livable 
communities, including the incorporation of transit-oriented 
development. HSIPR Program applicants must reach agreements 
with project infrastructure owners and service operators, 
including the freight railroads and Amtrak where applicable.

Q.2. Secretary LaHood, one thing I have noticed in recent years 
is that the strict cost/benefit analysis required by the New 
Starts program has sometimes resulted in transit lines being 
sited outside of city centers. This makes the projects cheaper, 
but does not serve to generate development. In New Jersey, we 
have seen that when you build where people live, as we did on 
the Hudson/Bergen Light Rail project, billions of dollars of 
transit oriented development will follow. Secretary LaHood, for 
this reason do you think a transit oriented development program 
should have as one of its requirements enough existing 
population around planned stops to spark new growth?

A.2. I believe that consideration of existing population and 
employment as well as projections for future population and 
employment is necessary to perform a fair comparison of 
projects around the country. Generally, transit performs best 
in areas with sufficient densities of people making similar 
trip patterns. Because these are long-term investments, it 
would be short-sighted to base decisions on existing population 
and employment alone. That said, the integrated planning 
approaches we are promoting are intended to help advance 
investments that will support future growth of the patterns and 
densities needed to make transit successful and sustainable.

Q.3. How much do you think the issue of transit oriented 
development has to do with the proper outreach? Many 
communities have zoning and land-use regulations that have 
their roots in the 1950s and 1960s. NJ TRANSIT has conducted 
some 40 vision-planning sessions for communities it has 
targeted for transit villages and it has seen the benefits, but 
the costs, time, and effort it takes to educate citizens, 
community groups, and local governments can be high. Do you 
think such outreach would be worthwhile use of resources for a 
Federal transit oriented development program?

A.3. Yes. Outreach and capacity building are critical to the 
institutionalization of transit-oriented development, as it 
engages practitioners from distinct specialty areas--land use 
and transportation. While the linkage between transportation 
and land use is generally acknowledged among these 
practitioners, their orientation to this integral element is 
rarely mutual. The focus on sustainable communities, however, 
requires them to find common goals and objectives. Land-use 
planning is locally oriented whereas transportation planning is 
either regional or statewide. Awareness of their 
interrelatedness, both in process as well as form, is most 
effectively realized through vision-planning exercises. Vision 
and grass roots based outreach and education to the public and 
elected officials can have a significant impact on their 
understanding and acceptance of alternative land-use 
development that is more favorable to transportation, including 
public transportation. In summary, enhanced capacity building 
and outreach to all community stakeholders (individual 
residents, transit agencies, government officials, 
neighborhood/community associations, etc.) will enable 
communities to make effective investment decisions and also 
leverage the Federal investment.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BENNET
                        FROM RAY LaHOOD

Q.1. A nice new neighborhood that is far away from good jobs 
and good schools, will not be a nice neighborhood for long. How 
can Washington's policy expertise and resources be harnessed 
most effectively with local leaders who understand a local jobs 
market and who know where the good schools are? I'm impressed 
with what I'm seeing from this panel--the Administration 
obviously intends to take an integrated approach. But local 
housing and urban planning experts have the applied knowledge 
of how particular communities work--how transit can interact 
with affordable housing, for instance. In short, how does 
Washington do a better job of helping particular cities 
integrate their planning decisions?

A.1. Enhanced integrated planning and investment is one of the 
key goals of the Department of Housing and Urban Development, 
the Department of Transportation and Environmental Protection 
Agency Sustainable Communities Partnership. Just as we at the 
Federal level are talking and working with one another, we are 
encouraging our respective community stakeholders to do the 
same. We are reviewing case studies of cities and States for 
which this collaboration actually occurs now. As a result, we 
will be able to define elements of successful integrated, 
comprehensive planning processes. We will work with local 
communities to replicate these efforts in consideration of 
their unique characteristics through technical assistance and 
capacity building programs, and promote identified best 
practices at housing and transportation forums across the 
Nation.
    In addition, the Federal Highway Administration (FHWA) and 
the Federal Transit Administration (FTA) assist Metropolitan 
Planning Organizations (MPOs) with understanding how to 
undertake integrated land-use/transportation/housing planning 
in a number of ways. At the region level, scenario planning can 
provide local planning staff and decision makers (local elected 
officials and local planners as well as MPO staff) with 
information on how various potential future transportation and 
land-use scenarios might perform. When future land use and 
transportation are analyzed in combination, it helps answer 
questions concerning the impacts of future population and 
employment growth and their impacts on land use and 
transportation. The outcome provides decision makers 
information on the implications of different land-use and 
transportation scenarios which in turn can be used to make 
decisions on what to include in the long range transportation 
plan for the region. On a more location-specific basis, 
planning for transit-oriented development (TOD) can similarly 
lead to better integrated land-use/transportation plans. 
Technical assistance has been provided and informational 
reports are in preparation outlining the strategic policy and 
programmatic opportunities available through MPOs to advance 
TOD in hundreds of communities across the United States.

Q.2. I am glad you include rural communities in your plans for 
sustainable development. Can you talk specifically about the 
challenges to employing sustainable development initiatives in 
rural areas? Are there opportunities to work with the 
Department of Agriculture on these efforts?

A.2. We recognize that rural areas have needs that are unique 
to their rural characteristics. For example, rural communities 
are being affected by the aging of the population and often 
have a higher percentage of older Americans who need access to 
services while being dependent on the automobile.
    Under the programs of the DOT, we have worked to include 
rural America in the transportation decision-making process by 
ensuring that there is a proactive effort for the participation 
of the public and rural local officials in the statewide 
transportation planning process. Encouraging this input into 
the planning process provides rural communities with the 
opportunity to foster transportation development in a 
sustainable manner.
    Small rural towns have the unique function as centers of 
commerce and community interaction that are critical to the 
sustainability of the area as a whole. Oftentimes, rural 
residents are far from needed social services like health care, 
education, and jobs. Rural areas also play an important role in 
environmental protection, such as source water and endangered 
species protection. Sustainable development in these 
communities would mean providing for and supporting the 
capacity for rural areas to maintain their rural character with 
the mix of farming, craftsmen, and small businesses, and a 
clean and healthy environment while also providing for access 
to services to town and urban centers in a safe and reliable 
manner. I believe we need to look at transportation from a 
national perspective and identify the best ways to link points 
of population and commerce, including the farms where our food 
is grown, the industrial areas, recreational opportunities, and 
the land borders and ports. Improvements to transportation 
infrastructure are critical to rural areas with a high stake in 
the agricultural economy. Certainly, we will look to the 
Department of Agriculture for assistance in achieving these 
goals.
    Currently, the FHWA Office of Planning and FHWA Office of 
Operations are working on ways to improve freight movement 
across the country, as moving agricultural products to market 
is a key for providing rural communities with needed resources. 
DOT and USDA can work together to ensure more reliable and 
sustainable freight movement.

Q.3. A critical component of effective development is buy-in 
and participation from residents. Will the incentives for 
regional planning include incentives to integrate local 
residents into the planning process?

A.3. Since the passage of the Intermodal Surface Transportation 
Efficiency Act (ISTEA) in December 1991 and throughout the 
subsequent authorizations, public involvement opportunities in 
the transportation planning process have been greatly enhanced. 
Metropolitan Planning Organizations (MPOs) and State 
Departments of Transportation (DOTs) now include public 
involvement in the development of transportation programs and 
plans. The public is given the opportunity to comment and 
participate in the development of transportation plans and 
programs through public meetings, stakeholder groups (e.g., 
bicycle, freight), use of the World Wide Web, and in some cases 
use of visualization tools. However, there is much room for 
improvement. I look forward to working with Congress to improve 
the way complex issues are presented to the public and how 
public input is integrated into transportation planning and 
investment decisions.

Q.4. As this Committee drafts the surface transportation 
program reauthorization, what specific changes should we make 
to the way that current transit and highway funding programs 
work in order to promote development that enables greater 
mobility and reduced reliance on cars?
    For example, some recent analyses of State transportation 
spending show that our major metropolitan areas receive 
dramatically less funding than their proportion of the State's 
population, vehicle miles traveled, or economic output, all of 
which are associated with the level of transportation needs.
    We've heard in prior hearings from Denver Mayor 
Hickenlooper and others that the current Cost Effectiveness 
Index for Federal transit investment decisions does not 
adequately take into account housing and economic development 
impacts, or support local efforts to direct future growth 
patterns along transit-oriented corridors.
    We also need to assure that rural residents, of which there 
are many in Colorado, continue to be well-served by 
transportation spending.
    But how would you modify the decision criteria, targeting, 
uses, and funding or match levels of our highway funding 
programs and transit programs to address the amount and use of 
transportation investment in Nation's metropolitan areas for 
more sustainable development?

A.4. In the proposal for an 18-month extension of the surface 
transportation program, the Administration has proposed to lay 
the groundwork for reform in the eventual reauthorization. One 
of those steps is to create a program to support efforts to 
coordinate transportation, housing, and land-use planning and 
fund projects that enhance the livability of communities, 
including transit and bike and pedestrian infrastructure.
    We also put out a solicitation for grant applications for 
the new multi-modal discretionary grant program created under 
the American Recovery and Reinvestment Act of 2009 (Recovery 
Act). In that solicitation, we made clear that we are looking 
for transportation projects that had both short and long term 
economic benefits for communities as well as improve the 
livability and sustainability of the community. We hope that 
our administration of this program encourages Congress to 
continue and expand this approach to ensure that the projects 
the Federal Government funds are the highest performing and top 
quality.

Q.5. The HUD budget proposal for the Sustainable Communities 
Initiative to provide $100 million for Metropolitan Planning 
Organizations and cities or counties that receive CDBG and HOME 
funds to collaborate on regional plans that integrate housing, 
land use, and transportation, and $40 million to provide 
challenge grants for local land-use changes that support 
regional objectives.
    Metropolitan Planning Organizations in major population 
centers across the country are inconsistent in their capacity, 
governance, and regional representation. States currently 
establish these structures. Many do not have effective land-use 
planning abilities. Many do not fully integrate transit 
agencies. Many are known for voting systems whereby suburban 
and smaller communities dominate the more populous central city 
and direct highway resources in ways that enable sprawl and 
more vehicles miles, rather than compact growth or infill.
    Do you have recommendations on structural changes to MPOs 
that will help them serve as better regional facilitators for 
integrated growth, potentially to consider in the surface 
transportation program reauthorization?
    Would you consider a new requirement in HUD Consolidated 
Plan and annual Action Plan, or MPO Long-Range Plans and 
Transportation Improvement Programs, that they demonstrate an 
alignment of housing, transportation, and land-use goals?

A.5. Successful plans can be and have been implemented by MPOs. 
Two examples are: PlanCheyenne, an integrated community master 
plan that defines the Cheyenne, Wyoming, area future growth; 
and Envision Utah Public/Private Partnership, formed to guide 
development and create growth strategies that protect Utah's 
environment, economic strengths and provide a sustainable 
quality of life for its residents.
    As part of the 18-month extension of the surface 
transportation program, the Administration is interested at 
taking steps to improve the capacity at Metropolitan Planning 
Organizations to better coordinate transportation planning with 
housing and development plans. We are currently developing 
legislative language and hope to share it with members of 
Congress in the coming days. Further, we look forward to 
working with Congress to address these issues in a long-term 
reauthorization.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                        FROM RAY LaHOOD

Q.1. In Boise, Idaho, a task force comprised of top level civic 
and business leaders is working in the community and is 
actively engaged in a comprehensive feasibility analysis and 
implementation strategy for the Downtown Boise Streetcar which 
can begin construction in 2010. The City of Boise will shortly 
be sending you an application for a $25 million exempt grant 
from TIGER for this project. Can I get your commitment that you 
will consider this request and that your staff will work with 
City of Boise on how best to proceed?

A.1. We encourage all project sponsors who believe they have a 
project that meets the criteria outlined in our Federal 
Register notice--long term outcomes, job creation, and economic 
stimulus, as well as innovation and partnership--to apply for 
TIGER grants under the American Recovery and Reinvestment Act. 
You have my pledge that we will carefully consider any 
application submitted by the City of Boise and will work with 
all applicants to ensure we have a thorough understanding of 
the projects and their benefits before making final selections 
for award.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CORKER
                        FROM RAY LaHOOD

Q.1. In urban centers across the country, there are obsolete 
corridors--particularly commercial ones--where the population 
has moved along, but we still have infrastructure in place and 
not being utilized. We see this in places across my own State 
of Tennessee where large retail centers or strip mall type 
areas stand abandoned.
    How do we find ways to create appropriate incentives for 
private sector development in these types of areas that help 
overcome the costs associated with EPA or ADA regulations that 
often point builders in a different direction?

A.1. Changes in demographics, shifts in land-use patterns, and 
the emergence of new job markets require different approaches 
to managing mobility and development. Poor coordination between 
transportation, housing and development policies can play a 
role in creating these obsolete corridors. Improving 
coordination between these policies and investments in housing, 
transportation and development programs can help to reverse the 
problem. They can also create stronger communities, better able 
to weather economically challenging times. Over the past year, 
communities with town centers, walkability, and transit have 
seen lower foreclosure rates than their car-dependent 
counterparts.
    In the proposal for an 18-month extension of the surface 
transportation program, the Administration has proposed to lay 
the groundwork for reform in the eventual reauthorization. One 
of those steps is to create a program to support efforts to 
coordinate transportation, housing and land-use planning and 
fund projects that enhance the livability of communities, 
including transit, transit-oriented development, and bike and 
pedestrian infrastructure. We are currently developing 
legislative language and hope to share it with members of 
Congress in the coming days. Further, we look forward to 
working with Congress to address these issues in a long-term 
reauthorization.

Q.2. In the City of Memphis, an estimated 10 percent of the 
residential, buildable lots are vacant and the difficulties in 
land consolidation and the environmental clean-up often 
required is prohibitive for new builds. On the residential side 
of things, do you have any suggestions as to what are the most 
appropriate incentives to encourage development and 
utilization? Should there be any distinction between 
residential areas and commercial areas in your view?

A.2. Infill and urban growth strategies are necessary to 
develop a truly successful livable community. One barrier is 
that developers typically leap frog to cheaper land parcels on 
the outer fringe of urbanized areas. Strong infill and growth 
strategies are required at the local level to prevent such 
development practices and this requires strong coordination 
between transportation, housing and development planning and 
investments. All Federal agencies must work together to ensure 
that Federal funding promotes coordination, leverages scarce 
resources and builds strong communities

Q.3. Do you believe that coordination between land-use and 
transportation infrastructure use needs to be mandated when 
planning occurs? Far too often such planning happens in a 
vacuum. How can we encourage reinvestment in aging 
infrastructure instead of building new?

A.3. Transportation dollars are most effectively spent in areas 
that coordinate those investments with housing and development 
investments. That is why we put such an emphasis on this 
coordination in our solicitation for grant applications for the 
new multi-modal discretionary grant program created under the 
Recovery act.
    We can also place a greater emphasis on bringing our 
infrastructure up to a state of good repair. Over the past 10 
years, the percentage of miles traveled on highways in good 
condition has increased from 39 to 47 percent. Still, there is 
much work to do. A performance-based system that prioritizes 
asset management is something that many members of Congress 
have expressed a desire to see, and we look forward to working 
with you to address this in the reauthorization of the surface 
transportation program.

Q.4. Do you believe that under the Uniform Relocation Act the 
rules and regulations have made the replacement of older multi-
family units prohibitive, even with multiple incentives 
included? Do you believe that such regulations promote an 
acceptance of very substandard housing in certain urban areas?

A.4. The Uniform Act provides important protections and 
assistance for people affected by federally funded projects. 
This law was enacted to ensure that people whose real property 
is acquired, or who move as a result of projects receiving 
Federal funds, will be treated fairly and equitably and will 
receive assistance in moving from the property they occupy. 
Ensuring that comparable housing that is decent, safe and 
sanitary is available to a homeowner or tenant displaced by a 
project or program that receives Federal financial aid or 
assistance is a bedrock principal and purpose of the Uniform 
Act. There is nothing in the Uniform Act or implementing 
regulations that has made redevelopment or replacement of older 
multi-family units prohibitive or would promote an acceptance 
of substandard housing. Agencies can and do utilize a number of 
creative options to ensure that the Uniform Act requirements 
can be met in a timely way. The provisions of the Uniform Act 
can be successfully used in conjunction with a collaborative 
development/redevelopment process. Given this situation, we do 
not see the Uniform Act as a barrier to development or 
redevelopment of older multi-family units.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                      FROM LISA P. JACKSON

Q.1. The Sustainable Communities Agenda and Small Towns--In 
Connecticut, in addition to cities like Hartford and New Haven, 
we have many small towns. It seems clear that promoting 
transit-oriented development can benefit large suburban 
communities and cities, but how can this sustainable 
communities agenda benefit small towns, such as Torrington, CT, 
as well as rural communities?

A.1. The basic principles of the Partnership for Sustainable 
Communities hold as true for small towns and rural areas as 
they do for cities and suburbs. All communities can find ways 
to direct development in a manner that supports existing 
neighborhoods, offers more equitable employment and housing 
opportunities, and offers transportation options that will help 
residents rely less on their cars.
    Rural communities can use these principles to direct 
development while protecting farmland and natural areas. 
Preserving the landscape is key to maintaining the rural way of 
life. For many rural places, farming or tourism are major 
economic assets and should be protected with carefully planned 
growth.
    Good planning can help with two issues that many rural 
communities struggle with: young people leaving the community 
to seek economic opportunities or affordable homes, and rural 
poverty. By encouraging a range of housing types, rural 
communities can give young people, older people who may be on 
fixed incomes, and lower income workers new options to stay in 
the community.
    Small and rural communities may face additional challenges 
where youth are drawn away from the community, particularly for 
job opportunities not available in the community. Small and 
rural towns are more economically, socially, and 
environmentally sustainable when connected to a larger public 
transportation grid that does not depend exclusively on private 
vehicles. Where viable in rural areas, public transportation 
allows industries to attract workers and professionals from a 
broader area.
    Small towns can revitalize their main streets, preserve 
their historic neighborhoods, and make sure that they have 
homes that young people just starting out can afford. They can 
preserve the character of their historic areas while 
accommodating new development, as Torrington is doing in its 
downtown. Small towns often have brownfields that offer good 
opportunities for redevelopment once they are cleaned up. 
Torrington, for example, is receiving $1 million from EPA to 
clean up and revitalize brownfields, which will help with its 
economic development efforts by returning contaminated 
properties to productive use.

Q.2. Brownfield Development--One part of the urban environment 
in many cities is old industrial sites, or brownfields. In 
fact, there is a large brownfield site in Bridgeport, CT, that 
is also very close to public transportation. These sites 
present a number of issues, including environmental concerns.
    How can this interagency sustainable communities agenda, 
and the EPA specifically, help communities tackle obstacles to 
revitalizing these areas?

A.2. Cleaning and redeveloping brownfields is a key strategy 
for sustainable communities. It can be particularly important 
in addressing environmental justice and equitable development 
questions. Brownfields are often located in poorer 
neighborhoods and, until they are cleaned up, can pose risks to 
public health and act as a deterrent to private investment in 
the neighborhood. HUD requires disclosure of brownfield 
properties prior to property rental or sale. As a result, 
property owners or tenants are aware of brownfield issues prior 
to their assumption of the property.
    While they can offer great opportunities for 
redevelopment--particularly when they are served by existing 
infrastructure and transportation--the complexity of putting 
these sites back to productive use can be daunting. HUD and EPA 
will work together to make sure our policies ensure that former 
brownfield sites can be put back into productive use in ways 
that protect future residents, strengthen and revitalize 
disadvantaged communities, and help local economies.
    EPA's Brownfields and Land Revitalization Program has been 
working for years to help communities overcome the challenges 
of cleaning up and redeveloping contaminated sites. As I 
mentioned in my testimony, the Brownfields Program has 
supported assessments of more than 13,500 properties and 
leveraged more than $13 billion in cleanup and redevelopment 
funding. (Based on data collected from the EPA Assessment, 
Cleanup and Redevelopment Exchange System (A.C.R.E.S.) 
Database, which is collected and reported annually.) 
Coordinating with DOT and HUD will help communities use these 
funds even more effectively by better incorporating 
transportation and housing concerns and tapping new sources of 
funding.
    As you know, Bridgeport has experience cleaning up and 
redeveloping brownfields. It is one of the Brownfield Program's 
success stories for cleaning up an abandoned factory and 
redeveloping it into a baseball stadium and other amenities. 
Bridgeport is also an example of how the Partnership for 
Sustainable Communities could coordinate efforts. In 
Bridgeport, the collaboration of multiple Federal agencies 
allowed cleanup and redevelopment to progress well beyond the 
assessment and planning stages enabled by EPA's initial 
$200,000 brownfields grant.
    Cleanup and redevelopment can also create jobs for 
residents of disadvantaged communities. With effective 
coordination, the Department of Labor, DOT, EPA, and HUD can 
leverage efforts to provide jobs for local low income persons 
living in economically distressed communities adjacent to 
brownfield sites.
    The Brownfields Program reports that it has trained more 
than 5,000 residents living near brownfield communities for 
environmental jobs. Bridgeport can claim one of these job 
training success stories. The WorkPlace, Inc., first received 
EPA Brownfields Job Training Grant funding in 2001. The program 
has trained 248 residents from Bridgeport and Naugatuck Valley 
and has a placement rate of 100 percent. Under the most recent 
grant, which was announced in January 2009, The WorkPlace, 
Inc., plans to train 55 residents from Ansonia, Derby, Norwalk, 
Seymour, and Shelton, Connecticut, for green jobs such as 
sampling techniques for soil and groundwater, phytoremediation, 
energy efficiency, and green buildings. To date, the average 
hourly wage for the individuals placed in jobs from The 
WorkPlace, Inc.'s program is $14.20 per hour, and 80 percent 
have retained employment after 1 year.
     Other job training success stories include:

  <bullet>  A project that created new opportunities for 
        residents of the Crow Indian Reservation in Montana, 
        training them in hazardous waste remediation and 
        ecosystem management; and

  <bullet>  A project in Brooklyn, New York, that worked with 
        local employers to determine their needs, then trained 
        residents not only in environmental management, but 
        also in ``life skills'' that prepare them for their 
        future employers' expectations.

    This sustainable communities agenda will encourage cleanup 
and redevelopment of sites like the one you describe in 
Bridgeport and will help communities meet environmental, 
transportation, and housing goals with the same investment.

Q.3. Public Transportation and Climate Change--Public 
transportation saves over 4 million gallons of gasoline 
annually and reduces carbon emissions by some 37 million metric 
tons per year. We also know that the transportation sector is 
responsible for one-third of carbon emissions. In my view, any 
climate change bill must address transportation.
    What role could improved public transportation and 
coordinated land-use planning play in helping to reduce carbon 
emissions from automobiles?

A.3. Increased investment in transit and better land-use 
planning around transit stations are two critical sides of the 
same coin. For example, an EPA study conducted with the 
Charlotte Department of Transportation found that transit-
oriented development around the LYNX light rail stations would 
increase ridership by 6,000 trips each day, a 50 percent 
increase over projected ridership without transit-oriented 
development. Over their lifetimes, these homes and office 
buildings would reduce emissions from vehicle travel by 2.5 
million metric tons of CO<INF>2</INF>. The 2008 Growing Cooler 
report, which EPA partially funded, estimated that compact 
development could reduce transportation-related CO<INF>2</INF> 
emissions by 7 to 10 percent from current trends in 2050.
    Nationwide, there is significant potential for adding 
housing and employment near transit. A study sponsored by the 
Federal Transit Administration concluded that 14 million 
households could be accommodated around existing and planned 
rail transit stations. If just half that number of homes were 
shifted to transit station areas, and those households drove 10 
percent fewer miles, it would add up to 4.5 million metric tons 
of avoided carbon emissions each year.
    At the local level, there are often barriers that limit 
this kind of transit-oriented development. However, these 
barriers can often be overcome with Federal support. For 
example, local zoning and parking regulations often need to be 
updated to accommodate transit-oriented projects proposed by 
developers.
    The EPA Smart Growth Program recently completed a technical 
assistance project to help Valley Metro Transit and the cities 
of Phoenix and Mesa, Arizona, determine what policy and 
planning options were available to promote transit-oriented 
development around the light rail system and how to prioritize 
implementation of these options. The resources developed 
through this project could be helpful to other communities that 
want to encourage transit-oriented development.
    Additionally, although transit-oriented development places 
a lower burden on a region's infrastructure, investments may 
still need to be made to upgrade local facilities. For example, 
sewer and water utilities serving it may need to be improved or 
expanded to accommodate a significant increase in homes or 
commercial buildings.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR SCHUMER
                      FROM LISA P. JACKSON

Q.1. Each of you have outlined the need for a coherent national 
policy, with long-term goals and indicators of success in 
working to develop more sustainable, energy-efficient, and 
clean communities, that needs to be coordinated across each of 
your agencies.
    As you know, my State has one of the largest urban areas in 
the country, as well as some of the most rural. How are the 
policy initiatives that your respective agencies are 
undertaking going to affect both urban and rural areas? How do 
they fit into the vision of a coherent national policy on 
greening, energy efficiency, and emissions reduction? How can 
Congress help you to achieve this goal?

A.1. As President Obama has said, our urban and rural 
communities are not independent; they are interdependent. The 
livability principles of the Partnership for Sustainable 
Communities were crafted to apply to all types of communities. 
We are still working on determining specific policy 
initiatives, but I can assure you that all three agencies in 
the partnership are concerned about protecting rural and small 
towns as well as suburbs and cities.
    We support the vision of a coherent national policy on 
greening, energy efficiency, and emissions reduction and 
believe that the Partnership for Sustainable Communities will 
help get us to that vision. Coordinating transportation, 
housing, and environmental protection goals will support 
development that uses green building techniques, target new 
development to areas where it makes sense to grow, and provide 
transportation options that will help reduce pollution and use 
less energy.
    For example, as part of EPA's Smart Growth Implementation 
Assistance program, the New York City's Mayor's Office of 
Comprehensive Neighborhood Economic Development and the 
Coalition for the Improvement of Bedford-Stuyvesant asked for 
EPA's assistance in using smart growth approaches and green 
building techniques for redevelopment in Bedford-Stuyvesant. 
Through a multi-day workshop and policy analysis work, EPA will 
be providing community members and the city of New York with 
ideas on how development policies--from smarter land use to 
green building standards--can be adapted to achieve additional 
energy efficiency. It is anticipated that the results of the 
work could be replicated in other areas--urban, suburban, and 
rural.
                                ------                                


       RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                      FROM LISA P. JACKSON

Q.1. Transportation accounts for one-third of U.S. carbon 
emissions. Per passenger mile traveled, transit is one-third or 
more efficient than a passenger vehicle, but when you factor in 
the emissions saved from reducing traffic and changing land-use 
patterns, the differences are truly enormous. In the upcoming 
climate change bill will the Administration be supportive of 
using pollution allowances to fund transit as was proposed by 
the Lieberman Warner bill last year?

A.1. Supporting transit and transit-oriented development are 
certainly important strategies for reducing greenhouse gas 
emissions. Americans want improved access to transit and better 
housing choices. While a cap and trade system may directionally 
encourage the use of transit via an increase in the cost of 
transportation fuel, this indirect and relatively small signal 
will not be enough to significantly shift travel patterns. 
According to the American Public Transit Association, Americans 
are riding transit in record numbers, with 2008 marking the 
highest level of ridership in more than 50 years. And a 2007 
survey by the National Association of Realtors found that, 
three-fourths of Americans believe that improving public 
transportation and building smarter development are better 
long-term solutions for reducing traffic congestion than 
building roads. That survey also found that more than 70 
percent of Americans are concerned with how growth and 
development affects global warming.
    Increased access to transit will help many Americans reduce 
their transportation costs. If people have more convenient 
alternatives, it's easier for them to reduce the amount they 
drive. In turn, the more we reduce the demand for carbon 
allowances from the transportation sector, the lower the price 
will be in allowance auctions. Better substitutes for driving 
are also the key to protecting Americans from gas price 
increases produced by global oil markets. It's no coincidence 
that transit ridership increases when the price of gas rises.
    Reduced driving also brings important co-benefits. Fewer 
vehicle miles traveled will reduce criteria air pollutants and 
can provide greater protections for those most vulnerable among 
us from the debilitating health impacts of air pollution.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BENNET
                      FROM LISA P. JACKSON

Q.1. A nice new neighborhood that is far away from good jobs 
and good schools, will not be a nice neighborhood for long. How 
can Washington's policy expertise and resources be harnessed 
most effectively with local leaders who understand a local jobs 
market and who know where the good schools are? I'm impressed 
with what I'm seeing from this panel--the Administration 
obviously intends to take an integrated approach. But local 
housing and urban planning experts have the applied knowledge 
of how particular communities work--how transit can interact 
with affordable housing, for instance. In short, how does 
Washington do a better job of helping particular cities 
integrate their planning decisions?

A.1. We agree that local leaders know the conditions of their 
neighborhoods and markets better than anyone from Washington, 
DC, could. There has been a long debate in this Nation about 
the appropriate Federal role in relation to land-use decisions. 
While it is true that development decisions are and should be 
made at the local, State, and tribal level, it is equally true 
that Federal policies, rules, and spending influence 
development patterns. The Partnership for Sustainable 
Communities will support local leaders by giving them tools and 
other resources to articulate and achieve their vision of 
development in their communities, and coordinating the flow of 
Federal funds to the local level to support these visions.
    This partnership will work to identify barriers to more 
integrated environmental, transportation, and housing planning 
processes at the Federal, State, and local levels. Many States 
already coordinate their housing, transportation, and 
environmental protection goals and funding. This partnership 
will help ensure that more States think of these three areas in 
a coordinated way. When coordinated, these activities will 
emphasize environmental, economic, cultural, and social 
sustainability.

Q.2. Sustainable development in the West means, among other 
things, managing our scarce water resources in a prudent 
manner. In your estimation, what steps are necessary to ensure 
we facilitate development that doesn't further exacerbate our 
already precarious situation with regards to water, and 
encourages integrating conservation measures?

A.2. EPA is working to foster a national ethic of water 
efficiency so that water is valued as a limited resource that 
should be used wisely. Water shortages have affected not only 
communities in the western United States, but all around the 
country.
    The 2009 report ``Global Climate Change Impacts in the 
United States,'' from the U.S. Global Change Research Program, 
outlines projected impacts of climate change. For not only the 
Southwest, but almost every area of the country, the report 
projects increasingly scarce water supplies and more periods of 
drought. This partnership will be working to remove barriers to 
compact development and encourage more water-efficient 
development all over the country.
    Compact development saves water in two primary ways:

  <bullet>  Large residential or commercial lots use more water 
        because they usually have more lawn or landscaping 
        space that needs to be irrigated. Lawn care uses an 
        average of 50 percent of household water use 
        nationally, and that percentage increases in some 
        regions depending on the local climate.

  <bullet>  More spread-out development means longer pipes to 
        supply water to customers. The longer the pipe, the 
        more water lost to leaks. Drinking water systems lose 
        anywhere from 6 to 25 percent of their water through 
        leaks and breaks.

    In addition to saving water, compact development saves 
money spent on water infrastructure because less infrastructure 
has to be built, maintained, and repaired. For example, 
modeling by the Envision Utah project estimated that, compared 
to a business-as-usual scenario, compact growth could reduce 
water demand by about 10 percent and reduce infrastructure 
costs by about 20 percent.
    The effects of developing more compactly are complemented 
by using green building techniques that reduce water use. In 
June 2006, EPA announced WaterSense, an innovative partnership 
program that helps American consumers, businesses, and 
governments make smart water choices that save money and 
maintain high environmental standards without compromising 
performance or requiring lifestyle changes. The WaterSense 
program is helping to reduce water use across the country by 
creating an easy-to-identify label for water-efficient products 
that is backed by strict criteria and independent 
certification. Products with the WaterSense label use at least 
20 percent less water and perform as well as--or better than--
conventional models. The WaterSense program is saving more than 
277 million gallons of water per year and saving consumers $1.6 
million on their utility bills.
    To develop and maintain sustainable water management 
systems and protect ecosystems, States and communities need to 
meld the management of wastewater, drinking water, and 
stormwater to reduce water withdrawals, treatment volumes, 
energy consumption, and negative impacts on streams, lakes, and 
coastal areas. We need to treat water more as a real commodity 
and plan, design, and manage our water infrastructure 
accordingly based on the true costs--direct and indirect--of 
providing clean water for our communities. Maximizing the reuse 
of wastewater, greywater, and the harvest and the use of 
stormwater and snowmelt would reduce unnecessary treatment and 
transport of water and the infrastructure necessary to convey 
and treat the water.

Q.3. I am glad you include rural communities in your plans for 
sustainable development. Can you talk specifically about the 
challenges to employing sustainable development initiatives in 
rural areas? Are there opportunities to work with the 
Department of Agriculture on these efforts?

A.3. Smart and sustainable development makes sense for rural 
communities and small towns for many of the same reasons that 
it makes sense for suburbs and cities. Smart growth approaches 
help rural communities and small towns save taxpayer money, 
support Main Street businesses, and grow while protecting the 
very assets--open space, farmland, and natural areas--that make 
them such desirable places to live and work and that can help 
them compete in the global economy.
    There are at least two broad areas that present particular 
challenges for rural communities. First is transportation. 
Residents of rural communities tend to drive more than their 
urban or metropolitan counterparts. This is to be expected, 
given population densities and rural economies. However, public 
investments in transportation enhancements that create more 
walkable, compact small towns, coupled with economic 
development strategies that help existing communities become 
more vibrant and thriving, can allow rural residents to combine 
trips and take shorter trips.
    Even in rural areas, these strategies can make walking and 
biking realistic alternatives to the automobile. Basalt, 
Colorado, for instance, recently adopted a new policy manual to 
increase mobility options and ensure that new street 
infrastructure is safe for pedestrians, bikers, and 
automobiles. Further, many rural communities across the country 
are adding public transit options such as commuter buses and 
vans that serve job centers, health-care facilities, and 
tourist destinations.
    The second broad challenge is water and sewer 
infrastructure. Many rural communities are struggling with 
failing septic systems, which pollute groundwater and cause 
water quality problems for surrounding waterbodies. The most 
common response to this problem has been to replace these 
systems with centralized wastewater treatment, which can lead 
to additional, uncontrolled growth. A better approach for these 
rural communities may be to replace or repair those failing 
systems with new septic systems. This approach respects the 
rural character of these places, is fiscally responsible, and 
allows EPA to better align our water infrastructure funding 
with a community's housing and transportation needs.
    There certainly are opportunities to work with the 
Department of Agriculture (USDA) on smart growth and 
sustainable community efforts. As you know, USDA is responsible 
for many funding programs that affect the built environment in 
rural areas. These programs include: utilities and rural 
electrification, community development, small business 
assistance, water and sewer infrastructure, the provision of 
social services, and many other programs. EPA will continue to 
talk with USDA to better coordinate our efforts to help rural 
communities grow in ways that protect their environment, 
economy, and character.

Q.4. A critical component of effective development is buy-in 
and participation from residents. Will the incentives for 
regional planning include incentives to integrate local 
residents into the planning process?

A.4. Effective public engagement includes workshops that 
solicit ideas and concerns from residents and provide feedback 
on how these concerns are addressed. The public should be 
involved at all stages of the development process to have truly 
meaningful input.
    There are many models of successful regional planning 
processes that engaged the public on a large scale and for a 
long period of time. The Sacramento Blueprint process brought 
together more than 5,000 community members, elected officials, 
and business leaders in workshops over 2 years. Envision Utah 
incorporated input from more than 17,000 surveys and 2,000 
attendees at workshops to develop scenarios for the Greater 
Wasatch region around Salt Lake City.
    It will also be important for these public engagement 
activities to make a particular effort to engage residents of 
disadvantaged communities, to make them feel welcome, and to 
make them feel like their voices are being heard and respected.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CORKER
                      FROM LISA P. JACKSON

Q.1. In urban centers across the country, there are obsolete 
corridors--particularly commercial ones--where the population 
has moved along, but we still have infrastructure in place and 
not being utilized. We see this in places across my own State 
of Tennessee where large retail centers or strip mall type 
areas stand abandoned.
    How do we find ways to create appropriate incentives for 
private sector development in these types of areas that help 
overcome the costs associated with EPA or ADA regulations that 
often point builders in a different direction?

A.1. The Partnership for Sustainable Communities will work to 
reduce Federal barriers to infill redevelopment in a way that 
makes sense--encouraging redevelopment that brings new homes, 
jobs, and amenities while still protecting the environment and 
disadvantaged populations.
    New Jersey and Maryland pioneered the development of 
``smart codes'' that adapts building code requirements for 
renovation and rehabilitation of existing buildings, so that 
reuse of existing buildings becomes as financially feasible as, 
or even less expensive than, new construction. These States 
have seen success in stimulating new development as a result. 
During the first year the code was in effect rehabilitation 
work in Newark grew by nearly 60 percent, by 84 percent in 
Jersey City, and by 41 percent in Trenton. National standards 
are now commercially available from the International Code 
Council, for example, in the form of its International Existing 
Building Code.
    EPA is working with State and local governments to create 
incentives for private development. For example, EPA worked 
with the State of West Virginia to develop stormwater 
permitting language that provides stormwater credits to 
developers who redevelop already degraded land, such as large 
retail centers or strip malls.
    EPA's Smart Growth Program is working with national 
standard-setting organizations to help revise other national, 
State, and local regulations and guidelines that can be 
barriers to infill redevelopment. For example, in many 
communities, fire codes require wide streets in places where 
more narrow streets would be appropriate. EPA brought together 
a coalition of emergency responders, local officials, and other 
experts to help demonstrate the benefits of narrower, better 
connected streets in reducing emergency response time and 
giving responders multiple routes to reach calls, while 
improving health and quality of life in the community. One 
national model for this type of collaboration is Harbor Town in 
Memphis, where the Memphis Fire Department worked with the 
Harbor Town developer to find street designs that protected 
public safety but also maintained the community character the 
residents wanted.
    EPA also offers resources to help small towns navigate the 
complex world of brownfields cleanup and redevelopment. Small 
towns may have a site needing assessment, but may lack the 
resources to get redevelopment started. EPA's Targeted 
Brownfields Assessment program is designed to help 
municipalities--especially those without EPA Brownfields 
Assessment Grants--minimize the uncertainties of contamination 
often associated with brownfields. Targeted Brownfields 
Assessments supplement and work with other efforts under EPA's 
Brownfields Program to promote the cleanup and redevelopment of 
brownfields.
    Chattanooga, of course, is a national model for smart 
growth and revitalization, and we are interested in working 
with you to take advantage of your experience in encouraging 
redevelopment.

Q.2. In the City of Memphis, an estimated 10 percent of the 
residential, buildable lots are vacant and the difficulties in 
land consolidation and the environmental cleanup often required 
is prohibitive for new builds. On the residential side of 
things, do you have any suggestions as to what are the most 
appropriate incentives to encourage development and 
utilization? Should there be any distinction between 
residential areas and commercial areas in your view?

A.2. The economic downturn, housing market crash, and fuel 
price volatility have all contributed to soaring vacancy rates 
in both residential (roughly 11 percent of all homes are 
estimated to be vacant) and commercial (retail vacancies are 
projected to reach 14 percent in 2010) buildings. This is in 
addition to the vacant, buildable lots found in Memphis and 
elsewhere.
    Policies that encourage mixed-use redevelopment can 
stimulate development and put to use the existing buildings, 
infrastructure, and amenities that these sites offer. Further, 
efforts that better connect residential and commercial areas--
either through closer proximity, better transportation or 
pedestrian connections, or a mixed-use redevelopment--provide 
residents and employees more transportation options. This can 
be a critical benefit in increasing affordability for residents 
and can be a powerful economic driver for commercial areas that 
may benefit from pedestrian-oriented as well as auto-oriented 
retail.
    EPA supports the National Vacant Properties Campaign, which 
works with communities to discover innovative ways of restoring 
underused and abandoned properties to productive use and 
disseminates these strategies to other interested cities. We 
believe there is potential for programs under the Community 
Redevelopment Act, or similar legislation, to be applied to 
this issue.
    As for the question about distinctions between residential 
and commercial areas, the EPA encourages all brownfields site 
cleanups to be performed through State Voluntary Cleanup 
Programs (VCP). Under the VCPs, cleanup levels that are 
protective of human health and the environment are determined 
based on the future reuse of the site. In general, cleanup 
standards are more stringent for residential than for mixed use 
or commercial reuse. The Brownfields Program recognizes the 
difficulties many communities are facing in addressing 
brownfields sites. The program provides communities with grant 
funding to assess and cleanup brownfields sites and information 
on tools and resources to overcome obstacles and barriers.

Q.3. Do you believe that coordination between land-use and 
transportation infrastructure use needs to be mandated when 
planning occurs? Far too often such planning happens in a 
vacuum. How can we encourage reinvestment in aging 
infrastructure instead of building new?

A.3. Coordinating land-use and transportation policies not only 
is a better use of taxpayer money, it also has the potential to 
produce significant environmental and financial benefits. For 
example, a 2002 National Academy of Sciences study concluded 
that modest changes in growth patterns would save $109 billion 
in road costs and $12 billion in water and sewer infrastructure 
over a 25 year period. In another example, the ``preferred 
scenario'' under the Sacramento Region Blueprint visioning 
process concluded that more coordinated land use and 
transportation would lead to:

  <bullet>  Preservation of 64 square miles of farmland, a 38 
        percent reduction in farmland lost under the baseline 
        scenario;

  <bullet>  69 percent of households living in walkable 
        neighborhoods, compared to 34 percent in the baseline 
        scenario;

  <bullet>  53 percent of households living near major 
        employment centers, compared to 26 percent in the 
        baseline scenario;

  <bullet>  38 percent more households and 41 percent more jobs 
        within walking distance of transit; and

  <bullet>  A 15 percent reduction in CO<INF>2</INF> emissions 
        per person.

    Therefore, we support better coordination of land-use and 
transportation planning. However, most State and regional 
transportation agencies would probably need additional 
resources for staff and analytical support to achieve 
meaningful coordination. Any mandate should be mindful of this 
implementation reality.
    States can save taxpayer money; leverage past 
infrastructure investments; and create jobs by directing 
spending to the repair and upgrade of existing schools, roads, 
sewers, and buildings, before investing in new infrastructure 
projects. Public reinvestment in existing neighborhoods signals 
a commitment to the area that can encourage private investment. 
It also makes neighborhoods more appealing to current and 
prospective residents and businesses. In addition, 
infrastructure in already-developed areas is likely to be the 
oldest and the most in need of repair. The longer repairs are 
put off, the more expensive the maintenance burden becomes.
    Several States use ``fix-it-first'' approaches, which 
direct infrastructure dollars to upgrade existing systems 
rather than constructing new infrastructure on the urban 
fringe. New Jersey's Fix it First Policy, for example, focuses 
funds on repair and upgrade of existing transportation 
infrastructure, while the New Jersey Department of 
Environmental Protection and the New Jersey Environmental 
Infrastructure Trust prioritize use of their Clean Water State 
Revolving Fund resources for programs that support development 
in State-designated urban centers, urban complexes, and transit 
villages.

Q.4. Do you believe that under the Uniform Relocation Act the 
rules and regulations have made the replacement of older multi-
family units prohibitive, even with multiple incentives 
included? Do you believe that such regulations promote an 
acceptance of very substandard housing in certain urban areas?

A.4. The Uniform Relocation Act was passed by Congress in 1970, 
and since that time has offered protection and assistance for 
residents affected by the acquisition, rehabilitation, or 
demolition of real property for Federal or federally funded 
projects. It is an important tool for ensuring that existing 
residents are not unduly burdened with displacement costs. The 
program has been successful in ensuring that the costs 
associated with moving and finding alternate housing solutions 
are covered. It is also a critical part of ensuring that the 
redevelopment of existing neighborhoods takes place in way that 
is equitable and protects existing residents.
    The Act has facilitated successful redevelopments across 
the country, turning vacant, blighted, or substandard housing 
sites into vibrant, mixed-use, mixed-income magnets for new 
investment. The Act's requirements apply to many HUD programs, 
such as HOME, Community Development Block Grants, and Section 
108 loan guarantees. The Uniform Relocation Act applied to the 
two examples below, which show that high quality redevelopment 
is not impeded by the act's requirements.
    Nonprofit organizations and community development 
corporations often lead the way in the most successful 
redevelopments, in which public funds are used to support 
mixed-income and affordable housing redevelopments. For 
example, the nonprofit organization Urban Edge, recipient of 
EPA's 2008 National Achievement in Smart Growth Award, 
demonstrated this approach in Boston in its Academy Homes 
redevelopment, in which more than 200 mixed-income housing 
units were created without resident displacement, and in 
Egleston Crossing, a mixed-income, mixed-use, transit 
accessible, and green redevelopment. Urban Edge's approach 
prevents gentrification while improving the housing stock in 
urban areas.
    Another award-winning development, Southside in Greensboro, 
North Carolina, used smart growth approaches to stimulate 
redevelopment in an area where only 30 percent of the housing 
stock was viable, by rehabilitating existing homes and 
developing new single- and multi-family infill developments. As 
a result, the neighborhood, which in 1995 generated only 
$400,000 in tax revenue, is expected to generate over $10 
million this year, reflecting an enormous increase in property 
values in this centrally located, transit-accessible, mixed-use 
neighborhood.

</pre></body></html>
